No.

IN THE

SUPREME COURT OF THE UNITED STATES

STEVEN THOR HATTON,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER
A-1

TABLE OF CONTENTS
Document
1.

Page

February 10, 2021, order of the
United States Eleventh
Circuit Court of Appeals . . . . . . . . A-3

2.

Order adopting Report and
Recommendation. . . . . . . . . . . . . . . A-25

3.

Report and Recommendation . . . . . . . . . . A-30

4.

Excerpt from the trial transcript . . . . . . A-135

5.

Excerpt from the postconviction
evidentiary hearing transcript . . . A-136

A-2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-12165-E
________________________
STEVEN THOR HATTON,
Petitioner - Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
ORDER:
Steven Thor Hatton, a Florida prisoner serving
a 15-year sentence for lewd or lascivious molestation of
A-3

a minor, filed a counseled 28 U.S.C. § 2254 petition,
arguing that his trial counsel was ineffective because:
(1)

counsel told the jury to find him guilty
during opening statements and failed to
correct that mistake;

(2)

counsel failed to move in limine or
otherwise seek to exclude his statement
to law enforcement; and

(3)

counsel impeached the victim with a
damaging prior statement.1

A Magistrate Judge recommended denying Mr.
Hatton’s § 2254 petition. The District Court adopted
the magistrate’s recommendation and denied the §
2254 petition and a COA. Mr. Hatton now moves for a
COA.

1 Although Mr. Hatton raised 10 claims in his § 2254
petition, his counseled motion for a COA argues only 3
claims.

A-4

I.
As background, Mr. Hatton was arrested for the lewd
and

lascivious

molestation

of

his

14-year-old

stepdaughter, J.S. The arrest report included a written
statement from J.S. describing several acts of
inappropriate touching. Notably, she wrote that he had
“humped” her in her bedroom while stating that he
“wishe(d] he could really stick his penis inside of [her].”
The state subsequently charged Mr. Hatton with three
counts of lewd or lascivious molestation of J.S.
At the outset of trial, the court told the jury that
it should not consider opening statements as evidence
in the case. Defense counsel then delivered his opening
statement, stating that Mr. Hatton was presumed
innocent, he had pied not guilty, and the state would
not be able to prove his guilt. He concluded with:
We believe firmly, you know, and with
A-5

confidence that after you hear all of the
evidence in this case, you will return a
verdict of not guilty.
The State cannot prove this case beyond
a reasonable doubt. Hatton didn’t touch
this girl in any manner sexually or
otherwise, and he is not guilty. And
again, keep an open mind, hold the State
to their burden. I don’t have to prove or
disprove anything and that we feel
confident that at the end of this case you
will, in fact, find Hatton guilty on all
counts. Thank you. (emphasis added).
J.S. testified that she had been living with her
mom and Mr. Hatton when she was 14 years old. She
and Mr. Hatton were really close. One morning, she
went into Mr. Hatton’s room, he was laying down on
A-6

his back, and she laid on top of him. He then stuck his
hand down the back of her pants, so that his bare hand
was touching her skin, but then pulled it out. J.S.
walked away, did not say anything about it.2
J.S. further testified that, on a prior occasion,
she had been in her family’s pool with Mr. Hatton, and
he asked if she had ever seen a penis. He then pulled
down his pants, grabbed her hand, made her touch
him, and kissed her. She then described a third
incident in which Mr. Hatton had inappropriately
touched her. She recalled that her mother was working
late, and while she was lying in bed and fully clothed,
Mr. Hatton came into her room, got on top of her, and
started “humping” her. She could feel him rubbing his
penis on her pelvic bone. She testified that he did not
say anything, but eventually got up and left.
2 K.S., her cousin, witnessed this incident and testified at
trial.

A-7

On cross-examination, counsel impeached J.S.
with her prior written statement to the police, in which
she had stated that, while Mr. Hatton was humping
her, he told her that he wished that he could stick his
penis inside her. She testified that she remembered
writing that in her statement but did not remember if
he said anything to her during the incident.
The state then introduced a recorded interview
of Mr. Hatton through Detective Shane Altman, who
testified that he had interviewed Hatton after
interviewing J.S. The interview was played to the jury.
In the interview, Mr. Hatton described J.S. as a “very
good kid” and “reliable.” He stated that nothing out of
the ordinary had happened recently, but he admitted
that: (1) there had been times where he had walked
into the bathroom while she was in the shower; (2) she
had sat on his lap; (3) he had discussed male and
A-8

female anatomy with her; (4) she likely had seen him
naked because they lived in a small house; (5) they had
laid in bed together several times, either talking,
saying goodnight, watching television, or wrestling; (6)
he had told her that she was “very attractive;” (7) they
had slept in the same bed on vacation; and (8) he had
touched, but not fondled, her breasts in the past, but
did not remember the circumstances. He denied ever
having sex with her or inappropriately touching her
but stated that she was “boy crazy” and hungry for
male attention, including attention from him. He said
she was slender and “wellendowed” for her age and had
been prancing around the house showing too much.
In closing argument, defense counsel argued
that the government had not met its burden of proof.
Counsel also noted several inconsistencies in J.S.’s
testimony as evidence that she was not credible.
A-9

Significantly, counsel argued that J.S. had changed her
story about the statements that Mr. Hatton made
while he was allegedly humping her, highlighting that
she previously said Hatton stated that he wanted to
put his penis inside her but testified at trial that he
said nothing. Counsel stressed that Mr. Hatton was not
guilty and asked the jury to return a not guilty verdict.
The jury found Mr. Hatton guilty, and the trial court
sentenced him to 180 months’ imprisonment.
After an unsuccessful direct appeal, Mr. Hatton
filed a Fla. R. Crim. P. 3.850 motion, raising Claims 1
through 3. At an evidentiary hearing, trial counsel
Jack Fleischman testified that he misspoke when he
asked the jury to find Mr. Hatton guilty during his
opening statement, and that he did not recall Hatton
or Hatton’s mother bringing the mistake to his
attention. He testified that he could not recall his
A-10

conversation with Mr. Hatton about the recorded
interview but did recall that “the tape was fairly
thorough in denying the allegations” and wanted the
entire interview to come in so the jury could hear
Hatton’s denials without him having to testify and be
subject to cross-examination. Mr. Fleischman also
wanted the whole interview to come in because Mr.
Hatton behaved in a manner that was favorable, as he
politely described J.S.’s negative attributes. Mr.
Fleischman further testified that he impeached the
victim with Mr. Hatton’s statement-that he wished
that he could put his penis inside the victim-because it
was inconsistent from her statement on direct
examination, although he admitted that it “sounds
bad.”
Mr. Hatton’s mother testified that she recalled
counsel’s mistake, and as soon as he said it, she
A-11

observed the jurors looking at each other, like “Did I
hear what I think I heard.” During the morning recess,
she told counsel what she had heard and observed. Mr.
Hatton testified that, when counsel made the
statement, the trial judge looked up from his papers,
directly at Hatton, and the jurors looked at him with a
puzzled look on their faces.
Chuck Shafer was admitted as an expert in
criminal defense trial strategy. He opined that Mr.
Fleischman’s misstatement during opening statement
infected the entire trial proceeding and said he would
have asked for a mistrial. As to the recorded police
interview, Mr. Shafer testified that he did not see any
tactical reason for counsel not to move to exclude Mr.
Hatton’s statements that the victim was a “good kid”
and “reliable,” as well as his statement about having
touched her breasts. Mr. Shafer testified that he
A-12

understood that counsel had attempted to impeach the
victim’s credibility with her prior inconsistent
statement, but that the statement was “extremely
inflammatory” and made matters worse.
The state court denied the Rule 3.850 motion,
and the Fourth District Court of Appeal affirmed. Mr.
Hatton then filed the instant § 2254 petition.
II.
To obtain a COA, Mr. Hatton must make “a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). He does so by
demonstrating that “reasonable jurists would find the
District Court’s assessment of the constitutional claims
debatable or wrong,” or that the issues “deserve
encouragement to proceed further.” Slack v. McDaniel,
529 U.S. 473, 484, l 20 S. Ct. 1595, 1603-04 (2000)
(quotation marks omitted). If a state court has
A-13

adjudicated a claim on the merits, a federal court may
grant habeas relief only if the state court’s decision was
(l) contrary to, or involved an unreasonable application
of, clearly established federal law, or (2) based on an
unreasonable determination of the facts in light of the
evidence presented in the state court proceeding. 28
U.S.C. § 2254(d)(l), (2).
To make a successful claim of ineffective
assistance of counsel, Mr. Hatton must show that ( l)
his counsel’s performance was deficient; and (2) the
deficient

performance

prejudiced

his

defense.

Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct.
2052, 2064 (1984). Counsel’s performance was deficient
only if it fell below the wide range of competence
demanded of attorneys in criminal cases. Id. at 688.
Prejudice occurs when there is a reasonable probability
that, but for counsel’s unprofessional errors, the result
A-14

of the proceeding would have been different. Id. at 694.
When analyzing a claim of ineffective assistance under
§ 2254(d), this Court’s review is “doubly” deferential to
counsel’s performance. Harrington v. Richter, 562 U.S.
86, l 05, 131 S. Ct. 770, 788 (2011). Under § 2254(d),
“the question is not whether counsel’s actions were
reasonable. The question is whether there is any
reasonable

argument

that

counsel

satisfied

Strickland’s deferential standard.” Id.
III.
Claim I
In his Rule 3.850 motion, Mr. Hatton argued
that counsel told the jury to find him guilty and failed
to correct the mistake. Mr. Hatton noted that both he
and his mother brought the mistake to counsel's
attention, but counsel did not do anything about it, and
had offered no strategic reason for failing to act. The
A-15

state court noted that counsel had made a “simple
human misstatement,” and the jury likely knew that it
was an inadvertent mistake, given that counsel argued
for Mr. Hatton’s innocence in the rest of his opening
statement. Further, the state court noted that the jury
was instructed that the attorneys’ statements were not
evidence. The District Court determined that Mr.
Hatton had not shown deficient performance or
prejudice, as counsel advocated for a not guilty verdict
throughout the trial, it was unreasonable to believe
that counsel’s slip-of-the-tongue infected the entire
trial, and the jury was instructed that counsel’s
statement was not evidence.
Reasonable jurists would not debate the District
Court's denial of this claim, as Mr. Hatton cannot show
any prejudice. Although counsel certainly erred, Mr.
Hatton

cannot

show

that
A-16

counsel’s

comment

contributed to the guilty verdict, as the statement did
not make sense in the context of the entire opening
statement, counsel’s position during trial, and his
arguments in closing. Counsel maintained Mr.
Hatton’s innocence in his opening statement and
asserted that the state would not be able to prove his
guilt. Only a few sentences before he misspoke, counsel
had asked the jury to find Mr. Hatton not guilty and
assured the jury that Hatton had not inappropriately
touched the victim. During the state’s case-in-chief,
counsel maintained his position that Mr. Hatton was
innocent and cross-examined each of the state’s
witnesses. In closing argument, counsel also argued for
Mr. Hatton’s innocence and asked the jury to find him
not guilty.
Counsel’s misstatement was clearly a mistake,
and counsel testified at the evidentiary hearing that he
A-17

did not recall Mr. Hatton or his mother bringing the
mistake to his attention. Finally, the trial court
warned the jury that the attorneys’ statements were
not evidence, and despite Mr. Hatton’s post-conviction
testimony that the jurors gave him puzzled looks, the
jurors were presumed to follow the court’s instructions.
See Sutton v. State, 718 So. 2d 215, 216 (Fla. Dist. Ct.
App. 1998). Accordingly, no COA is warranted.
Claim 2
Mr. Hatton argued that counsel failed to move in
limine or otherwise seek to exclude portions of his
interview with law enforcement, specifically where he
stated that: (1) the victim was a “good kid” and
“reliable;” (2) he had touched her breasts; (3) the victim
had sat on his lap several times; (4) the victim had
seen him naked; (5) they had laid in bed together
before; (6) they slept in the same bed on vacation; and
A-18

(7) he had been in the bathroom while she was in the
shower. He further argued that his comments about
the victim’s reliability were improper character
evidence, the remaining statements were evidence of
prior bad acts or wrongs, and the prejudicial effect of
all the statements outweighed their probative value.
The state court ruled that any motion to exclude
the statements would have been denied, as the
statements were admissible as statements against
interest, and their probative value outweighed their
prejudicial effect. The District Court agreed with the
state court regarding the futility of a motion to exclude
and added that a redacted version of the interview
might not have been beneficial to the defense, as it
would have left the jury free to assume that the gaps in
the statements were more prejudicial than they were.
Further, counsel used the entire statement to place Mr.
A-19

Hatton in a positive light, as he argued in closing
argument that Mr. Hatton voluntarily spoke with the
police.
Under Florida

law, relevant, out-of-court

statements of a party opponent are admissible in
evidence pursuant to Fla. Stat. § 90.803(18) and are
thus an exception to the hearsay rule. Relevant
evidence is inadmissible if its probative value is
substantially outweighed by the danger of unfair
prejudice. Id. § 90.403.
Reasonable jurists would not debate the District
Court’s denial of this claim. As an initial matter,
defense counsel testified that he wanted the entire
interview admitted because it allowed the jury to hear
Mr. Hatton deny the allegations without requiring him
to take the stand and be subject to cross-examination.
And counsel testified that he thought Mr. Hatton’s
A-20

behavior during the interview was favorable to him.
Thus, allowing the entire interview to be admitted was
a strategic decision that is “virtually unchallengeable.”
Provenzano v. Singletary, 148 F.3d 1327, 1332 (11th
Cir. 1998).
Beyond that, a motion in limine likely would not
have been granted. Because the state offered the
statements against Mr. Hatton at trial-not to bolster
J.S.’s credibility-the statements were admissible as
admissions of a party opponent, and, as the state court
noted,

their

probative

value

outweighed

their

prejudicial effect. See Fla. Stat. § 90.803(18).
Therefore, even if counsel had moved to exclude these
statements, the motion likely would have been denied.
Claim 3
Mr. Hatton argued that counsel was ineffective
for impeaching the victim with a harmful prior
A-21

inconsistent statement-specifically, that Hatton had
stated, while humping her, that he wished to put his
penis inside her. The state court ruled that counsel
made a strategic decision to impeach the victim’s
credibility, and counsel’s impeachment was not so
unreasonable that he was not acting as counsel at all.
The District Court acknowledged that counsel’s
impeachment allowed a relatively worse statement to
come into the record but concluded that it was not so
wholly unreasonable to rise to the level of deficient
performance, as counsel thought it was important to
bring to the jury’s attention discrepancies in her
version of events.
Reasonable jurists would not debate the District
Court’s denial of this claim, as counsel’s strategic
impeachment decision does not rise to the level of
deficient performance. Counsel made a strategic
A-22

decision to impeach the victim with her prior
inconsistent statement. The victim had stated on direct
examination that Mr. Hatton did not say anything
while humping her, which contradicted her earlier
statements that he said he wished that he could put
his penis inside her. This decision was not wholly
unreasonable given the circumstances of the case.
Because there were no eyewitnesses for two of the
three counts against Mr. Hatton, the competing
testimony as to those two counts came down to
credibility. In that situation, raising inconsistencies in
the victim’s version of events and thus calling her
credibility into question was one of the only options
available to defense counsel. Counsel made the
decision to pursue that line of questioning and even
argued that point in closing argument. Thus, Mr.
Hatton has not shown that no competent counsel would
A-23

have made such a choice.
IV.
Because Mr. Hatton has failed to make the
requisite showing, his COA motion is DENIED.

[signature of Beverly B. Martin]
UNITED STATES CIRCUIT JUDGE

A-24

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO.: 18-cv-14337-MIDDLEBROOKS/Maynard

STEVEN THOR HATTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_________________________________________/
ORDER ADOPTING REPORT AND
RECOMMENDATION
THIS CAUSE comes before the Court upon
Magistrate Judge Shaniek M. Maynard’s Report and
Recommendation on Petition for Writ of Habeas
Corpus (“Report”), issued on December 2, 2020. (DE
17). The Report recommends denial of the Petition,
A-25

which seeks relief under 28 U.S.C. § 2254. Petitioner
filed objections on January 15, 2020. (DE 20).The
Government did not respond to Petitioner’s objections.
Petitioner objects to the Report’s findings on
several grounds. I note that many of Petitioner’s
objections are merely restatements of his position,
rather than an argument as to the Report’s specific
findings. In this Order, I address only those arguments
in which Petitioner substantively disputes a particular
finding in the Report. In all other respects, I have
conducted a de novo review of the record, and I agree
with the Report and the recommendations therein in
their entirety.
First, Petitioner argues that the Report erred by
finding that counsel’s misstatement as to Petitioner’s
guilt during closing arguments was not outcome
determinative.
A-26

Specifically, Petitioner cites Clark v. State to support
his argument that but for counsel’s misstatement, the
jury would have found him guilty. 690 So. 2d 1280,
1283 (Fla. 1997). However, Clark involved an attorney
that repeatedly stated that his client was a bad person
and deserving of punishment. In this case, I agree with
the Report’s finding that this was merely an
unfortunate slip of the tongue and substantial other
evidence supports the jury’s verdict. Accordingly, Clark
does not effectively undermine the Report’s findings.
Next, Petitioner argues that the Report
incorrectly concluded that counsel did not act in a
“wholly unreasonable” manner in introducing a prior
inconsistent statement. Strickland v. Washington, 466
U.S. 668 (1984). More specifically, Petitioner argues
that the Report overlooked evidence that during the
state court postconviction evidentiary hearing, counsel
A-27

stated “I can’t tell you why now” when asked why he
played the entire tape of the interrogation in which the
prior inconsistent statement was made. However, the
Report points to statements from the same hearing in
which counsel justified his introduction of the
statement. Therefore, it appears that counsel did not
know why he presented the statement in tape format
but did have a strategic reason for presenting the
statement itself. Accordingly, I agree with the Report’s
findings and overrule Petitioner’s objection.
After a careful de novo review of Judge
Maynard’s Report and the record in this case, I agree
that this petition should be denied. I also find that
Petitioner has failed to make “a substantial showing of
the denial of a constitutional right” sufficient to
support the award of a Certificate of Appealability. 28
U.S.C. § 2253. Accordingly, it is hereby
A-28

ORDERED AND ADJUDGED that
(1) The Report (DE 17) is RATIFIED,
ADOPTED, AND APPROVED in its entirety.
(2) Petitioner Steven Thor Hatton’s Verified
Petition for Writ of Habeas Corpus pursuant to
28 U.S.C. § 2254 (DE 1) is DENIED.
(3) A Certificate of Appealability is DENIED.
(4) The Clerk of Court is directed to CLOSE
THIS CASE.
(5) All pending motions are DENIED AS
MOOT.
SIGNED in Chambers at West Palm Beach, Florida,
this 14th day of May, 2020.
[signature of Donald M. Middlebrooks]
DONALD M. MIDDLEBROOKS
UNITED STATES DISTRICT JUDGE

A-29

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-14337-CIV-MIDDLEBROOKS/
MAYNARD
STEVEN THOR HATTON,
Petitioner,
v.
JULIE L. JONES,
FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent.
________________________________________/
REPORT AND RECOMMENDATION ON
PETITION UNDER 28 U.S.C. § 2254 FOR
WRIT OF HABEAS CORPUS BY A PERSON IN
STATE CUSTODY (DE 1)
THIS CAUSE comes before this Court upon an
Order of Reference (DE 4) and the above Petition. The
A-30

record before this Court consists of the Petition,
Response (DE 10), Appendix (DE 11), Reply (DE 14),
and Supplemental Appendix (DE 16). Having reviewed
the record, this Court recommends as follows:
BACKGROUND
The criminal charges against Petitioner stem
from allegations that he sexually molested his
fourteen-year-old

stepdaughter,

J.S.,

on

three

occasions. The charging document on which he went to
trial was the Second Amended Information. (DE 11-1
at 97). Count I thereof alleged that he committed lewd
and lascivious molestation of J.S. while they were in
their swimming pool. That incident was alleged to have
occurred between December 20, 2003 and September
26, 2004. Count 2 charged that he committed lewd and
lascivious molestation of J.S. when he lay on top of her
in her bed and “humped” her. The incident was alleged
A-31

to have occurred between September 27, 2004 and
June 13, 2005. Count 3 charged that he committed
lewd and lascivious molestation of J.S. on June 14,
2005 by putting his hands down her pants while she
was on top of him.
A. The Trial
On September 10, 2007, Judge Sherwood Bauer
called the criminal case for trial. The trial transcript
begins at page 204 of DE 11-1. The State called four
witnesses: J.S. (the victim), K.S. (the victim’s
thirteen-year-old cousin), Ms. Huntley (the mother of
K.S.), and Detective Richard Shane Altman of the
Okeechobee County Sheriff’s Office.
K.S. was a witness to the third alleged
molestation incident. He saw Petitioner put his hand
down the back of the victim’s pants while she lay on
top of the Petitioner. That occurred on June 14, 2005
A-32

as they prepared to leave for a family trip to Marco
Island. When they returned from the trip, K.S. told his
mother what he saw. His mother, Ms. Huntley, then
talked to the victim. Thereafter Petitioner’s conduct
was reported to the police.
The victim testified that that incident was not
the first time that Petitioner had touched her sexually.
She said Petitioner had previously exposed himself to
her while at their swimming pool. On that occasion,
Petitioner “French-kissed” her and made her touch his
penis, she alleged. On another occasion, Petitioner
came into her bedroom, laid himself on top of her with
his penis against her pelvic bone, and “humped” her
through their clothing.
The jury found Petitioner guilty of all three
counts of lewd and lascivious molestation by an
offender over the age of eighteen on a victim of between
A-33

twelve to sixteen years of age (DE 11-1 at 638-40).
Petitioner was sentenced to fifteen years in prison on
each count—to be served concurrently (DE 11-1 at
159-61). Jack Fleischman, Esq., represented Petitioner
at the pre-trial and trial-level stages of the criminal
prosecution.
B. Direct Appeal
Ralph A. Hagans, Esq., represented the
Petitioner on the direct appeal. In the direct appeal,
which was filed on November 13, 2007 (DE 11-1 at
150-51), Petitioner challenged several of the trial
court’s rulings: (1) instructing the jury on lewd and
lascivious conduct under Fla. Stat. § 800.04(6) as a
lesser included offense of lewd and lascivious
molestation under Fla. Stat. § 800.04(5), (2) not
allowing Petitioner to call certain witnesses, (3) not
giving the jury written instructions, and (4) not
A-34

entering a directed verdict as to Counts 1 and 2 (DE
11-2). Petitioner also argued that the prosecution failed
to prove Count 3 beyond a reasonable doubt. Id. On
November 26, 2008, Florida’s Fourth District Court of
Appeal affirmed Petitioner’s conviction and sentence
per curiam and without a written opinion 1 (DE 11-5).
Hatton v. State, 996 So. 2d 865 (Fla. 4th DCA 2008).
The Mandate issued on January 30, 2009 (DE 14-1 at
9 and DE 11-7).
C. Rule 3.850 Motions
On January 28, 2010, Petitioner timely filed a
Motion for Post-Conviction Relief pursuant to Florida

1 “Under Florida law, the Florida Supreme Court lacks
jurisdiction to hear an appeal from a per curiam affirmance
of a conviction by a lower state appellate court.” Williams v.
Sec’y, Fla. Dep’t of Corr., 674 F. App’x 975, 976 (11th Cir.
2017) (citing Jenkins v. State, 385 So. 2d 1356, 1359 (Fla.
1980)).

A-35

Rule of Criminal Procedure 3.8502 raising four
ineffective assistance of trial counsel claims (DE 11-8).
Petitioner now was represented by Andrea M. Norgard,
Esq., and Robert A. Norgard, Esq. (DE 11-8 at 17). The
state post-conviction court dismissed the Rule 3.850
Motion as insufficiently pleaded on April 20, 2010 and
denied the motion for rehearing on May 18, 2010.
However the court gave the Petitioner an opportunity
to amend (as the court recalled in a later order found at
DE 11-11). On June 25, 2010, following appeal to
Florida’s Fourth DCA, the postconviction court allowed
the Norgards to withdraw their representation of the

2 Fla. R. Crim. P. 3.850, entitled Motion to Vacate, Set
Aside, or Correct Sentence, provides a vehicle for collateral
review of a criminal conviction. Duncan v. Walker, 533 U.S.
167, 177 (2001). Florida generally requires defendants to
raise ineffective assistance of counsel claims in these
postconviction proceedings rather than on direct appeal.
Reynolds v. State, 99 So. 3d 459, 474 (Fla. 2012) (“claims of
ineffective assistance of counsel generally are not cognizable
on direct appeal and are properly raised in postconviction
proceedings”).

A-36

Petitioner.
Petitioner raised the following four claims in the
January 28, 2010 Rule 3.850 Motion. They are that: 1)
trial counsel was ineffective for not seeking to exclude
from evidence the portions of Petitioner’s recorded
statement to law enforcement where he said the victim
is reliable and that he had previously touched her
breast and lay in bed with her; (2) trial counsel was
ineffective for inadvertently telling the jury in his
opening statement that it would find his client guilty
instead of not guilty and for not correcting his
misstatement or moving for a mistrial; (3) trial counsel
was ineffective for impeaching the victim with a prior
inconsistent statement that instead provided further
evidence of criminal intent against the Petitioner; and
(4) trial counsel was ineffective for not objecting to Ms.
Huntley’s testimony that the victim had seen a
A-37

counselor before going to the police3 (DE 11-8).
On January 28, 2011, two days before the
deadline for filing additional Rule 3.850 claims4 (DE 14
at 9), Petitioner filed a pro se Rule 3.850 motion
containing fourteen ineffective assistance of trial
counsel claims5 (DE 16-1). On March 30, 2011, the

3 Petitioner argued that Ms. Huntley’s testimony that they
took the victim to a counselor improperly bolstered the
victim’s credibility by implying that a children’s counselor
believed her and thereby prompted the need for a criminal
investigation.
4 Under Fla. R. Crim. P. 3.850(b), a Rule 3.850 Motion
must be filed within two years after the judgment and
sentence become final. Here, the judgment and sentence
became final on January 30, 2009 when Florida’s Fourth
DCA issued its mandate.
5 These claims are that his trial counsel was ineffective
for: (1) failing to timely file post-trial motions; (2) failing to
present the defense’s private investigator as a witness; (3)
failing to properly advise Petitioner regarding the
prosecutor’s pre-trial plea offer; (4) failing to assist in
preparing the verdict form; (5) failing to object when the
jury received an exhibit that was not meant to be published;
(6) failing to present two particular expert witnesses during
trial; (7) failing to present mitigating evidence pertaining to
Petitioner’s statement to law enforcement officials; (8)
failing to properly impeach the alleged victim with her prior

A-38

state post-conviction court dismissed Petitioner’s pro se
motion as insufficiently pleaded. That dismissal was
“without

prejudice

to

refile

a

comprehensive

sufficiently pled” motion, however. The court gave him
the “opportunity to file a new motion raising
sufficiently pled claims” pursuant to Spera v. State,
971 So. 2d 754, 761 (Fla. 2007). The court gave him
until May 5, 2011 to do so. The court specifically
instructed Petitioner to re-plead only those claims
already raised in his January 28, 2011 motion and not
to assert any new claims. Moreover, of the claims he
already had raised, the court instructed Petitioner to

inconsistent statements; (9) failing to present a witness to
verify a particular character trait of the alleged victim; (10)
failing to properly question a State witness who was the
alleged victim’s cousin; (11) failing to present evidence
regarding a sexual relationship between the alleged victim
and another male; (12) not striking a particular juror
during voir dire; (13) not informing the jurors during voir
dire of the maiden name of Petitioner’s former wife; and
(14) failing to properly question two jurors regarding their
potential bias.

A-39

replead only those that he could assert in good faith.
Beyond that, the state post-conviction court gave no
instruction or guidance. It did not explain what the
pleading deficiency was or what needed to be corrected.
(That dismissal order is found in the record at DE
16-2.)
Petitioner retained Michael Ufferman, Esq., on
April 25, 2011 to represent him, and Mr. Ufferman has
remained his post-conviction counsel ever since. On
April 29, 2011 Mr. Ufferman requested on Petitioner’s
behalf a 30 day extension of time to obtain the
underlying record and to amend the Rule 3.850 Motion.
On May 5, 2011, the state post-conviction court denied
that request. Petitioner recounts this facet of the
procedural history in his Amended Initial Brief dated
January 11, 2013 (and found in the record at DE 14-1).
As Petitioner recounts at footnote 9 thereof, the state
A-40

post-conviction court characterized its March 30, 2011
order as creating a “second opportunity” to amend.6
Petitioner argued to the Fourth DCA that that
characterization was incorrect. Because the claims that
he had raised in his pro se Rule 3.850 Motion were all
new claims, it would have been their first, not second,
amendment. Petitioner argued further that the state
post-conviction court violated Florida appellate court
precedent when it denied his newly retained counsel
(Mr. Ufferman) additional time to amend the claims he
previously had raised in his pro se Rule 3.850 Motion
(and also let the clock run out on his ability to amend).
Even if he had sufficient time to amend them,

6 The state post-conviction court now was denying
Petitioner the opportunity to re-plead the claims that he
had raised in his pro se motion contrary to its previous
ruling that gave him leave to do just that, this Court
observes. However it does not appear that Petitioner
included this particular point---regarding the consistency of
the state postconviction court’s rulings regarding leave to
amend---in his appeal to the Fourth DCA, this Court adds.

A-41

Petitioner argued that the state post-conviction court
acted contrary to the spirit of Spera because it gave
him no guidance as to what the pleading defects were
and how they needed to be amended.
By

this

point

the

state

post-conviction

proceeding had developed to a confusing procedural
posture with two different Rule 3.850 Motions at issue
and two different appeals pending. The Fourth DCA
consolidated the two appeals. Then on August 13, 2014
the Fourth DCA held that the original Rule 3.850
Motion (the one that the Norgards filed on Petitioner’s
behalf on January 28, 2010) was sufficiently pleaded
and should not have been dismissed. The Fourth DCA
therefore remanded that motion back to the state
post-conviction court for a merits ruling. See Hatton v.
State, 143 So. 3d 1181 (Fla. 4th DCA Aug. 13, 2014).
(Also found at DE 11-9). Next the Fourth DCA
A-42

addressed Mr. Ufferman’s request for additional time,
and it affirmed the state postconviction court’s denial
of that relief but without explanation.
The Fourth DCA issued the mandate on its
remand opinion on August 29, 2014. (DE 11-9). That
restarted the post-conviction proceeding, and the
parties resumed litigating the four claims from the
initial Rule 3.850 Motion dated January 20, 2010. On
January 12, 2015 the State filed its Response thereto
(DE 11-10). In that Response7 the State stipulated to
the need for a hearing “on all grounds” based on its
“review of the trial transcript” and “the tortured
history of this case”. Id. The state post-conviction court
scheduled an evidentiary hearing on all four ineffective

7 Even though it was the Petitioner’s originally filed
motion, the State curiously referred to it as his “Belated
Motion for Post Conviction Relief”; moreover the State
mailed a copy of its Response to Andrea Norgard, Esq., even
though Ms. Norgard had not represented the Petitioner for
quite some time by this point.

A-43

assistance of counsel claims that the Petitioner had
raised in his initial Rule 3.850 Motion filed on January
28, 2010.
Rule 3.850 Hearing
An evidentiary hearing was held on March 9,
2016 before Circuit Judge Dan L. Vaughn (DE 11-24 at
1-109). Michael Ufferman, Esq., and Donald A.
Pumphrey, Jr., Esq., represented Petitioner at the
evidentiary hearing. Assistant State Attorney Ashley
Albright, the prosecutor who tried the case, appeared
on behalf of the State. Id. Petitioner called three
witnesses:

Jack

Fleischman,

Esq.,

Peggy

Ann

McElhenny, and Theodore Charles Shafer, Esq. The
Petitioner testified, too.
1. Mr. Fleischman’s Rule 3.850 Testimony
The first witness to testify at the Rule 3.850
evidentiary hearing was Mr. Fleischman who had
A-44

represented Petitioner at trial. Id. at 10. He had been
a criminal defense attorney for twenty years and had
tried approximately 200 jury trials and several sex
crime cases. Id. at 23-26. Petitioner’s claims of
ineffective assistance concern Mr. Fleischman’s
representation of him and how he presented his
defense.
Regarding

Petitioner’s

first

claim,

Mr.

Fleischman explained that he did not object to the
State’s proffer of the entire recorded statement that
Petitioner had given to law enforcement because that
full statement was overall beneficial to the defense. Id.
at 13-20, 26-29. It gave the jury information about
Petitioner’s positive relationship with the victim and
about issues she was having in the home without
Petitioner having to take the stand to testify about
that same information where he would be subject to
A-45

cross-examination. Id. at 13-16. It allowed the defense
to portray the victim as a good person who
nevertheless made up the allegations because “she
wanted attention, maybe was boy crazy, and was
unhappy being in the home.” Id. at 14. Mr. Fleischman
was not bothered by the Petitioner’s statements that
the victim was reliable and that he had accidentally
touched her breasts before. Id. at 13-20, 26-29. Mr.
Fleischman made the strategic decision to allow the
full recording to enter the record because Petitioner
contemporaneously and consistently denied the
allegations against him throughout the interview. Mr.
Fleischman believed the full interview cast Petitioner
in an overall good light. Id. at 13-16.
Regarding the second claim, Mr. Fleischman
acknowledged that he had misspoke at the end of his
opening statement to the jury when he said: “I don’t
A-46

have to prove or disprove anything and we feel
confident that at the end of this case you will, in fact,
find [Petitioner] guilty on all counts.” Id. at 12-13,
30-32. (emphasis added). He did not realize that he had
made that mistake at the time, and he does not
remember Petitioner or Petitioner’s mother mentioning
it to him during the break. Id. at 12-13. Mr.
Fleischman otherwise consistently argued throughout
the trial that Petitioner was not guilty. Id. at 30-32.
Regarding claim three, Mr. Fleischman believed
it was a reasonable strategy for him to cross-examine
the victim about her inconsistent statements over
whether Petitioner had said anything during the
“humping” incident. On direct examination the victim
testified from the witness stand that Petitioner had
said nothing during that incident. Id. at 20-23, 32. Mr.
Fleischman pointed to her prior written statement
A-47

where she said that Petitioner did say something to her
during that incident: that he wanted to put his penis
inside of her. Id. at 20-23, 32. Mr. Fleischman pointed
out an additional such discrepancy from her deposition.
Mr.

Fleischman

sought

to

highlight

those

inconsistencies. Id. at 20-23, 32. According to Mr.
Fleischman, if he had not done so, “we’d be here
because the defendant would say, ‘well, she made a
statement different than what she testified in court,
you didn’t cross examine her on it.’” Id. at 22-23.
As to claim number four, Mr. Fleischman said it
was “significantly relevant” that the alleged victim’s
mother had sought guidance from a counselor rather
than go directly to law enforcement. Id. at 32-34. He
stated that, “if your daughter has been improperly
touched . . . you go to the police.” Id. at 33-34. The
implication is that a parent who believes her child’s
A-48

molestation claim goes directly to law enforcement
rather than to a counselor. Mr. Fleischman said that
he had emphasized that same point in prior cases with
success. Id. at 34.
2.

Peggy Ann McElhenny Rule 3.850

Testimony
The next witness was Petitioner’s mother, Peggy
Ann McElhenny (DE 11-24 at 35). She was present
during the entire trial against her son. Id. at 37. She
heard his trial counsel, Mr. Fleischman, tell the jury
during his opening argument that it should find
Petitioner guilty. Id. at 37-38. When he said that, she
saw the jurors “looking at each other” as if they were
asking themselves, “did I hear what I think I heard?”
Id. at 38. She unsuccessfully tried to get Mr.
Fleischman’s attention to let him know what he had
said. Id. at 39. Afterwards, during the morning break,
A-49

she told Mr. Fleischman he had said her son was
“guilty”. Id. at 39-41. He denied it. Id. She wanted to
suggest to Mr. Fleischman that he ask the court
reporter to read it back to him, but she refrained
because she was unsure whether that was allowed. Id.
at

40.

On

cross-examination,

Ms.

McElhenny

acknowledged that other than that one misstatement,
Mr. Fleischman spent the rest of the trial trying to
prove and argue that her son was not guilty. Id. at 42,
3.

Petitioner

Hatton’s

Rule

3.850

Testimony
Petitioner took the stand (DE 11-24 at 47). He
said that he also heard Mr. Fleischman tell the jury
that it will find him “guilty” on all counts, to which the
jurors gave him “the most puzzling look.” Id. at 48-50.
One of the jurors furrowed his brow and looked as
though he were thinking, “why would he say that if
A-50

he’s the defense attorney.” Id. at 50. Another juror
looked as though she could not believe what she was
hearing. Id. Petitioner and his mother confronted Mr.
Fleischman about the misstatement at the next break.
Id. at 51-52. In response, Mr. Fleischman “kind of
sucked his teeth” and said, “no, I didn’t say that.” Id. at
52-53. They insisted that he indeed had said it, but the
issue

was

addressed

no

further.

Id.

On

cross-examination, Petitioner acknowledged that Mr.
Fleischman’s

misstatement

was

“probably

…

accidental,” and was out of context with everything
else Mr. Fleischman had said. Id. at 54-55.
4. Attorney Shafer’s Rule 3.850 Testimony
Theodore

Shafer,

Esq.,

was

retained by

Petitioner’s Rule 3.850 counsel to evaluate and opine
about Mr. Fleischman’s conduct and the quality of his
representation (DE 11-24 at 61). Mr. Shafer has
A-51

practiced law since 1987, and he has done primarily
criminal defense work since 1991. Id. at 58-59. He has
tried approximately 80 jury trials. Id. at 75. Based on
his credentials and without objection from Respondent,
Mr. Shafer was admitted as an expert in the field of
criminal defense. Id. at 61.
In Mr. Shafer’s opinion, Mr. Fleischman should
have sought to redact Petitioner’s comments that the
victim was reliable and that he previously had touched
her breast from the police interview that was proffered
to the jury. Id. at 66-71, 96-99. Redacting his voucher
of the victim’s reliability would have been a reasonable
course of action since the victim’s credibility was
critical to the State’s ability to prove all three counts.
Id. at 66-71, 96-99. Excluding Petitioner’s concession of
having touched her breast also was advisable since the
case involved lewd and lascivious acts on her. Id. at
A-52

69-71. Mr. Shafer would have moved under Rule 404(b)
to redact that concession as an uncharged prior bad act
of the Petitioner. Id. at 70. Mr. Shafer saw no benefit
to the Petitioner’s defense from allowing the jury to
hear that statement. Id. at 71.
Mr. Shafer furthered that Mr. Fleischman
should have asked the court reporter to read back the
transcript, and once he confirmed his misstatement
about finding the Petitioner “guilty”, he should have
moved for a mistrial. Id. at 64-65. Jurors who hear the
defense attorney say in the opening argument that his
client is “guilty” will consider the rest of the trial
evidence with that in mind, Mr. Shafer opined. Id. The
misstatement thereby would have prejudiced the entire
trial proceeding. Id.
Nor did Mr. Shafer believe that impeaching the
victim with her prior inconsistent statements over
A-53

whether or not Petitioner had spoken during the
humping incident was a reasonably beneficial strategy.
Id. at 72-73. To the contrary, it was a “huge backfire”,
“fell flat”, and was “extremely inflammatory”, Mr.
Shafer opined. Id. at 73.
D. The Rule 3.850 Ruling and Appeal
That evidentiary hearing took place on March 9,
2016 (the transcript for which is at DE 11-24). On May
19, 2016 Petitioner filed his Post-Evidentiary Hearing
Memorandum of Law and Fact in Support of His
Motion for Postconviction Relief (DE 11-12). A
Response (DE 11-13) and Reply (DE 11-14) were filed
thereby completing the briefing on the four claims from
his initial Rule 3.850 Motion. The state post-conviction
court rendered its merits ruling on September 1, 2016
(DE 11-15). Petitioner’s later ineffective assistance of
counsel claims---the ones that he raised after his initial
A-54

motion---and their procedural history were not
discussed in this round of briefing. On April 12, 2018
(DE 11-20) the Fourth DCA affirmed the state
post-conviction court’s ruling on his four initial claims
for relief per curiam and without a written opinion. See
Hatton v. State, 244 So. 3d 271 (Fla. 4th DCA 2018).
(Also found in the record at DE 11-20.)
E. Federal Habeas Petition
Petitioner filed the instant petition for writ of
habeas corpus pursuant to 28 U.S.C. § 2254 on August
21, 2018.
TIMELINESS
Both parties agree that the petition now pending
before this Court is timely. This Court therefore
accepts the § 2254 Petition as timely filed.
EXHAUSTION
The exhaustion doctrine precludes a state
A-55

prisoner from seeking federal habeas relief before he
has fairly presented his constitutional claims in state
court and exhausted available state court remedies.
O’Sullivan v. Boerckel, 526 U.S. 838, 842, 844 (1999);
Title 28 U.S.C. § 2254(b). Both the factual substance of
a claim and the federal constitutional issue, itself,
must have been expressly presented to the state court
to achieve exhaustion for purposes of federal habeas
corpus review. Baldwin v. Reese, 541 U.S. 27 (2004). A
claim must be presented to the highest court of the
state to satisfy the exhaustion requirement. O’Sullivan
v. Boerckel, 526 U.S. 838, 845 (1999). In a Florida
non-capital case, this means the applicant must have
presented his claims in a district court of appeal.
Upshaw v. Singletary, 70 F.3d 576, 579 (11th Cir.
1995). Exhaustion may be accomplished on direct
appeal. If not, in Florida, it may be accomplished by
A-56

the pursuit of a Rule 3.850 motion and the appeal of its
denial. Leonard v. Wainwright, 601 F.2d 807, 808 (5th
Cir. 1979).
The doctrine of procedural default is closely
related to the doctrine of state-court exhaustion. Both
doctrines are rooted by the same principles of comity
requiring federal courts to show deference to state
courts’ authority. See Coleman v. Thompson, 501 U.S.
722, 731 (1991), overruled in part on other grounds by
Martinez v. Ryan, 566 U.S. 1 (2012). Whereas the
exhaustion inquiry asks whether any state remedies
remain available, the procedural default inquiry asks
whether the petitioner followed the state’s rules to
properly exhaust the claims. See O’Sullivan v.
Boerckel, 526 U.S. 838, 848 (1999). A petitioner’s
claims may be barred from federal habeas review for
failure to meet the state’s procedural requirements for
A-57

presenting his federal claims in state court. Coleman,
501 U.S. at 750. To bar federal habeas review of a
state-defaulted claim, the state procedural rule must
be an adequate and independent state ground for
denying relief. Id.
The procedural default doctrine has exceptions.
Id. Federal habeas review of a defaulted claim is
available if a petitioner shows either (1) cause for and
prejudice from the procedural default or (2) “that
failure to consider his claims will result in a
fundamental miscarriage of justice” (where actual
innocence is shown). Wright v. Hopper, 169 F.3d 695,
703 (11th Cir. 1999) (citing Coleman, 501 U.S. at 750).
Also, a narrow, non-constitutional and equitable
exception exists allowing a petitioner to establish cause
for excusing a procedural default of ineffective
assistance

of

counsel

claims

A-58

under

certain

circumstances. Where, as in Florida, ineffective
assistance claims typically must be raised in
post-conviction proceedings, see Smith v. State, 998 So.
2d 516, 522-23 (Fla. 2008), a procedural default will
not bar habeas review of ineffective assistance claims
if, in that proceeding, there was ineffective counsel or
no counsel. Martinez, 566 U.S. at 16-17. Additionally,
Martinez adopted the constitutional standard from
Strickland for determining whether postconviction
counsel’s conduct should excuse a procedural default
and permit habeas review of ineffective assistance of
trial counsel claims. Hittson, 759 F.3d at 1262-63
(citing Strickland, 466 U.S. at 687-88).
Respondent argues that Claims 4, 5 and 6 have
not been exhausted because they were not part of
Petitioner’s initial Rule 3.850 motion filed on January
28, 2010. Instead Petitioner raised Claims 4, 5 and 6
A-59

later in his pro se Rule 3.850 Motion that he filed on
January 28, 2011. The state post-conviction court
dismissed the pro se Rule 3.850 motion as insufficiently
pleaded, and those particular claims were not
re-asserted. (DE 10 at 18). As the above procedural
history shows, Petitioner did try to raise them, and he
advocated his right to do so to the Fourth DCA.
Ultimately, however, the state court denied him that
opportunity. Despite initially giving him leave to
amend under Spera (DE 16-2), the state post-conviction
court later denied his newly-retained counsel, Mr.
Ufferman, additional time to do so (DE 14-1 at n.9)
which the Fourth DCA then affirmed (DE 11-9). In a
technical sense at least Petitioner did not exhaust
these particular claims for relief. However the
Respondent gives short shrift to Petitioner’s efforts to
obtain a merits ruling on them.
A-60

Assuming that this situation constitutes a
procedural default---even if only in the technical
sense---Petitioner asks this Court nevertheless to
consider Claims 4, 5 and 6 on their merits under an
exception to the procedural default rule. Citing
Martinez v. Ryan, 132 S.Ct. 1309, 1320 (2012),
Petitioner argues that the procedural default should be
excused because his initially retained counsel (the
Norgards) were ineffective for not including them in
the initial Rule 3.850 Motion. The Respondent argues
that Petitioner does not qualify for such relief.
Whether Petitioner is entitled to the Martinez
exception, this Court need not decide. This is because
this Court finds that the subject claims were exhausted
in the substantive sense. A Florida post-conviction
court’s dismissal of a claim for facial insufficiency is a
ruling on the merits for purposes of the procedural
A-61

default analysis. Pope v. Sec’y for Dep’t of Corr., 680
F.3d 1271, 1286, 1298 n. 8 (11th Cir. 2012). Here, the
Florida post-conviction court dismissed Petitioner’s pro
se Rule 3.850 Motion, which included Claims 4 through
6, for facial insufficiency (DE 14 at 10). Therefore,
these claims were subject to a ruling on the merits and
are not barred from federal habeas review. Ultimately,
however, the procedural bar question is moot because
as this Court explains below Petitioner would not
prevail on their merits anyway. Loggins v. Thomas,
654 F.3d 1204, 1215 (11th Cir. 2011) (holding that a
federal habeas court may “skip over” the procedural
default issues and deny a claim on the merits).
STANDARDS OF REVIEW
A.

Standard Under Antiterrorism and

Effective Death Penalty Act
Petitioner’s federal habeas petition is governed
A-62

by 28 U.S.C. § 2254(d), as amended by the
Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”). Title 28 U.S.C. § 2254(a) permits a federal
court to issue “a writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a State
court” if that custody is “in violation of the Constitution
or laws or treaties of the United States.” The issuance
of a writ is limited, however, by the purpose of AEDPA,
which is “to ensure that federal habeas relief functions
as a guard against extreme malfunctions in the state
criminal justice systems, and not as a means of error
correction.” Greene v. Fisher, 565 U.S. 34, 38 (2011)
(internal quotations and citations omitted). The
AEDPA establishes a formidable barrier to state
prisoners seeking federal habeas relief because it is
based on the principle that “state courts are adequate
forums for the vindication of federal rights.” See Downs
A-63

v. Sec’y, Fla. Dep’t of Corrs., 738 F.3d 240, 256 (2013).
Section 2254 applies at the end of a greater
course of judicial review. Section 2254(d) assumes that
the Petitioner already exhausted his claims using the
state’s postconviction avenues of relief to obtain an
adjudication on their merits. The Eleventh Circuit
directs the focus of inquiry to the last merits
adjudication by the state court. As applied to this case,
that is the unwritten PCA opinion that Florida’s
Fourth DCA rendered to affirm the denial of
Petitioner’s rule 3.850 postconviction motion (DE
11-20). Even though the PCA adjudication is unwritten
and thus gives no explanatory basis, it still counts as
a merits determination, and it still is entitled to
deference. See Reed v. Sec’y, Fla. Dep’t of Corrs., 767
F.3d 1252, 1261 (11th Cir. 2014).
While the deference remains, the fact that the
A-64

Fourth DCA offered no reasons for the affirmance does
affect the scope of review. In this situation, the
reviewing federal court must “look through” to the last
adjudication that does provide a relevant rationale. See
Wilson v. Sellers, 138 S.Ct. 1188, 1192 (2018). As
applied here, that means this Court looks through to
Circuit

Court

Judge

Vaughn’s

Order

Denying

Defendant’s Fla. R. Crim. P. 3.850 Motion dated
September 1, 2016 (DE 11-15). This Court assumes
that the appellate court adopted Judge Vaughn’s
reasoning and rationale. Id.
The next step in the analysis is to identify the
legal basis that entitles the Petitioner to habeas corpus
relief. That is, to identify the constitutional or federal
law that was violated. Section 2254(d)(1) narrows that
inquiry down to “clearly established Federal law, as
determined by the Supreme Court of the United
A-65

States.” The phrase “clearly established Federal law”
refers to the holdings, as opposed to the dicta, of the
Supreme Court’s opinions in existence when the state
court decided the postconviction claims. See Downs,
738 F.3d at 256-57 (adding that it includes a binding
circuit court decision that says whether the particular
point in issue is clearly established Supreme Court
precedent). For a claim based on the ineffective
assistance of counsel, for example, the governing
standard comes from the Supreme Court’s seminal
Strickland v. Washington, 466 U.S. 668 (1984) opinion.
Section 2254(d)(1) asks whether the state court’s
denial was “contrary to” that clearly established
Federal law. The phrase “contrary to” means that the
state court decision contradicts the Supreme Court on
a settled question of law or holds differently than the
Supreme Court on a set of materially indistinguishable
A-66

facts. See Downs, 738 F.3d at 257. A state court’s
decision can be contrary to the governing federal legal
standard either in its result (the denial of relief) or in
its reasoning.
Section 2254(d)(1) also asks the reviewing
federal court to determine whether the state court’s
denial “involved an unreasonable application of” that
clearly established federal standard. An unreasonable
application of federal law is not the same as a merely
incorrect application of federal law. See Downs, 738
F.3d at 257. It tests whether the state court’s
application of the legal principle was objectively
unreasonable in light of the record before the state
court at the time. An objectively unreasonable
application of federal law occurs when the state court
identifies the correct legal rule but unreasonably
applies, extends, or declines to extend it to the facts of
A-67

the case. See Putnam v. Head, 268 F.3d 1223, 1241
(11th Cir. 2001).
Section 2254(d)(1) tests the legal correctness of
the state court’s decision, but it does so through a
highly deferential lens. The degree of error must be
substantial and beyond dispute. The state court’s
decision survives § 2254(d)(1) review so long as some
fair-minded jurists could agree with the state court,
even if others might disagree. See Downs, 738 F.3d at
257.
While subsection (1) of § 2254(d) tests the legal
correctness of the state postconviction court’s denial of
relief against controlling federal case law, subsection
(2) of § 2254(d) sets forth the standard by which a
federal court reviews the state postconviction court’s
findings of fact. Section 2254(d)(2) asks whether the
state postconviction court based its denial “on an
A-68

unreasonable determination of the facts” based on the
evidence before it at the time.
As with the § 2254(d)(1) legal analysis, a
reviewing federal court is to consider the state court’s
findings of fact through a deferential lens. The state
court’s finding of fact is not unreasonable just because
the reviewing federal court would have reached a
different finding of fact on its own. So long as
reasonable minds might disagree about the finding of
fact, the state court’s finding stands. See Downs, 738
F.3d

at

257.

Indeed,

the

state

court’s

fact

determinations are presumed to be correct. Section
2254(e)(1) places the burden on the Petitioner to rebut
that “presumption of correctness by clear and
convincing evidence.” Even if the state postconviction
court did make a fact error, its decision still should be
affirmed if there is some alternative basis sufficient to
A-69

support it. See Pineda v. Warden, 802 F.3d 1198 (11th
Cir. 2015).
Obviously then § 2254(d) creates a standard of
review that is highly deferential to the state court’s
denial of the claim. The reviewing federal court must
give the state postconviction court the benefit of the
doubt and construe its reasoning towards affirmance.
See Lynch v. Sec’y, Fla. Dep’t of Corrs., 776 F.3d 1209
(11th Cir. 2015). To warrant relief under § 2254(d), the
Petitioner must show that the state court’s ruling was
“so lacking in justification that there was an error well
understood and comprehended in existing law beyond
any

possibility

for

fair-minded

disagreement.”

Harrington v. Richter, 562 U.S. 86, 103 (2011). This is
the degree of error the Petitioner must show before this
Court may override the state postconviction court’s
decision and overturn the finality of the conviction and
A-70

sentence.
B. Ineffective Assistance of Counsel
To prevail, Petitioner must overcome the
substantial deference and presumption of correctness
that the underlying record enjoys. Under Strickland,
an additional layer of deference applies to Petitioner’s
claims of ineffective assistance of counsel. Strickland,
466 U.S. at 684-85. The Sixth Amendment to the
United States Constitution guarantees criminal
defendants the right to the assistance of counsel during
criminal proceedings against them. Id. Defendants in
state court prosecutions have such right under the
Fourteenth Amendment. Minton v. Sec’y, Dep’t of
Corrs., 271 F. App’x 916, 918 (11th Cir. 2008). When
assessing counsel’s performance under Strickland, the
Court employs a strong presumption that counsel
“rendered adequate assistance and made all significant
A-71

decisions in the exercise of reasonable professional
judgment.” Strickland, 466 U.S. at 690. “[T]he Sixth
Amendment does not guarantee the right to perfect
counsel; it promises only the right to effective
assistance.” Burt v. Titlow, 571 U.S. 12, 18 (2013). To
prevail on a claim of ineffective assistance of counsel,
Petitioner must demonstrate: (1) that his counsel’s
performance was deficient, i.e., the performance fell
below an objective standard of reasonableness; and (2)
that he suffered prejudice as a result of that deficient
performance. Strickland, 466 U.S. at 687-88.
To establish deficient performance, Petitioner
must show that, in light of all the circumstances,
counsel’s performance was outside the wide range of
professional competence. Id. at 690; see Cummings v.
Sec’y for Dep’t of Corrs., 588 F.3d 1331, 1356 (11th Cir.
2009) (“To establish deficient performance, a defendant
A-72

must show that his counsel’s representation fell below
an objective standard of reasonableness in light of
prevailing professional norms at the time the
representation took place.”). A court’s review of
counsel’s performance should focus on “not what is
possible or what is prudent or appropriate but only [on]
what is constitutionally compelled.” Chandler v. United
States, 218 F.3d 1305, 1313 (11th Cir. 2000) (en banc),
cert. den’d, 531 U.S. 1204 (2001). There are no absolute
rules dictating what is reasonable performance because
absolute rules would restrict the wide latitude counsel
have in making tactical decisions. Id. at 1317. The test
for ineffectiveness is not whether counsel could have
done more; perfection is not required. Nor is the test
whether the best criminal defense attorneys might
have done more. Id. at 1316. Instead, to overcome the
presumption that assistance was adequate, “a
A-73

petitioner must ‘establish that no competent counsel
would have taken the action that his counsel did take.’”
Hittson v. GDCP Warden, 759 F.3d 1210, 1263 (11th
Cir. 2014) (quoting Chandler v. United States, 218 F.3d
1305, 1315 (11th Cir. 2000) (en banc)).
Regarding

the

prejudice

component,

the

Supreme Court has explained “[t]he defendant must
show that there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466
U.S. at 694. A reasonable probability is “a probability
sufficient to undermine confidence in the outcome.” Id.
A court need not address both prongs of Strickland if
the defendant makes an insufficient showing on one of
the prongs. Id. at 697. Further, counsel is not
ineffective for failing to raise non-meritorious issues.
Chandler v. Moore, 240 F.3d 907, 917 (11th Cir. 2001).
A-74

Counsel is also not required to present every
non-frivolous argument. Dell v. United States, 710 F.3d
1267, 1282 (11th Cir. 2013).
Further, a federal habeas court does not apply
Strickland de novo, “but rather, through the additional
prism of [Section 2254(d)] deference.” Morris v. Sec’y,
Dep’t of Corr., 677 F.3d 1117, 1126 (11th Cir. 2012).
“Thus, under this doubly deferential standard, the
pivotal

question

application

of

is
the

whether

the

Strickland

state

court’s

standard

was

unreasonable. And if, at a minimum, fairminded jurists
could disagree about the correctness of the state court’s
decision, the state court’s application of Strickland was
not unreasonable and [Section 2254(d)] precludes the
grant of habeas relief.” Id. (internal citation omitted);
but see Evans v. Sec’y, Dep’t of Corrs., 703 F.3d 1316,
1333-35 (11th Cir. 2013) (en banc) (Jordan, J.,
A-75

concurring) (explaining that double deference to a state
court’s adjudication of a Strickland claim applies only
to Strickland’s performance prong, not to the prejudice
inquiry). “This ‘double deference is doubly difficult for
a petitioner to overcome, and it will be a rare case in
which an ineffective assistance of counsel claim that
was denied on the merits in state court is found to
merit relief in a federal habeas proceeding.’” Id.
(quoting Evans v. Sec’y, DOC, FL, 699 F.3d 1249, 1268
(11th Cir. 2012)).
DISCUSSION
In total, Petitioner raises ten claims for habeas
corpus relief. They are:
Claim 1: Whether trial counsel was ineffective when
he inadvertently told the jury during opening
statements that they would find Petitioner guilty
instead of not guilty and failed to correct this
A-76

statement or move for a mistrial (DE 1 at 12);
Claim 2: Whether trial counsel was ineffective for
failing to file a motion in limine to exclude portions of
Petitioner’s videotaped statement to law enforcement
(DE 1 at 16);
Claim 3: Whether trial counsel was ineffective when
he impeached the victim with a prior inconsistent
statement

that

was

potentially

even

more

incriminating (DE 1 at 23);
Claim 4: Whether trial counsel was ineffective for
failing to call a private investigator as a witness to
impeach the Respondent’s eye witness regarding what
the witness alleged he saw (DE 1 at 26);
Claim 5: Whether trial counsel was ineffective for not
objecting when the victim’s affidavit (introduced for
identification

only

as

State’s

Exhibit

1)

was

inadvertently given to the jurors for consideration
A-77

during deliberations (DE 1 at 28);
Claim 6: Whether trial counsel was ineffective for
failing to call Petitioner’s stepbrother, Leo Gauthier, as
a witness to testify about the victim’s character trait of
jumping innocently on top of other men (DE 1 at 30);
Claim 7: Whether trial counsel’s cumulative errors
deprived Petitioner of a fair trial (DE 1 at 31);
Claim 8: Whether the trial court erred by denying
Petitioner’s request to call defense witnesses who
would

have

testified

that

the

victim

acted

promiscuously in front of other boys and possibly had
a sexual relationship with the Respondent’s eye
witness (DE 1 at 33-35);
Claim 9: Whether the trial court erred by denying
Petitioner’s motion for judgment of acquittal (DE 1 at
36);
Claim 10:

Whether the trial court erred by not
A-78

sending the written instructions back with the jury
during deliberations in order to clarify and correct, due
to misstatement by the trial court, the time frames for
each alleged count (DE 1 at 40). This Court
recommends that the Petition be denied as to all
claims. Petitioner is not entitled to relief on the merits.
Claim 1
There are the three claims of ineffective
assistance of trial counsel that the state postconviction
court denied after an evidentiary hearing (the
Merits-Reviewed Ineffective

Assistance

of Trial

Counsel Claims) (Claims 1-3).
In Claims 1-3, Petitioner challenges his
conviction and sentence collaterally on the basis that
Mr. Fleischman was ineffective in defending him at
trial. The Strickland opinion (and its subsequent
interpretative case law) that sets forth and defines the
A-79

actionable federal right at issue with respect to these
claims.
Claim 1 alleges that Mr. Fleischman was
ineffective because he inadvertently told the jury that
it would find Petitioner “guilty” (instead of not guilty)
when he was concluding his opening argument: “I don’t
have to prove or disprove anything and that we feel
confident that at the end of this case you will, in fact,
find Hatton guilty on all counts” (DE 11-1 at 355)
(emphasis added). Petitioner argues further that Mr.
Fleischman was ineffective for not seeking to correct
that misstatement or to move for a mistrial. At the
later Rule 3.850 hearing Mr. Fleischman acknowledged
the slip of the tongue in retrospect, but he did not
realize at the time (DE 11-15 at 3, 13). Despite that
one misstatement, however, Mr. Fleischman otherwise
and consistently advocated throughout the entire rest
A-80

of the trial for a “not guilty” verdict. He stated just
prior to the misstatement, for example, that: “Hatton
didn’t touch this girl in any manner sexually or
otherwise, and he is not guilty.” Id. (emphasis added).
During his cross-examination of the victim, Mr.
Fleischman contended that she had motive to fabricate
the charges because she did not want to move to a new
location as Petitioner and her mother were planning.
Id. at 387-88. In his closing argument, Mr. Fleischman
again unequivocally told the jury that Petitioner was
not guilty. Id. at 559. The jury was left to consider the
evidence and decide Petitioner’s guilt or innocence. It
is

unreasonable

to

believe

that

an

isolated

misstatement, made in the context of an opening
argument advocating for Petitioner’s innocence, so
infected the trial as to deem the otherwise obvious slip
of the tongue as the ineffective assistance of counsel.
A-81

See, e.g., United States v. Weston, 708 F.2d 302, 307
(7th Cir.), cert. denied, 464 U.S. 962 (1983) (finding
that “a slip of the lip by counsel during the pressures
of trial” did not constitute ineffective assistance of
counsel). Moreover, in its final instructions the trial
court informed the jury that “[anything] the lawyers
say is not evidence” and instructed jurors not to
consider the lawyers’ comments as evidence in deciding
the case (DE 11-1 at 344). For the foregoing reasons,
Petitioner cannot show that if his counsel had not
made the misstatement, the outcome of the case would
have been different. Because Petitioner can establish
neither deficient performance nor prejudice under
Strickland, Claim 1 provides no basis for relief.
Claim 2
In Claim 2, Petitioner argues that trial counsel
was ineffective for failing to file a motion in limine to
A-82

exclude portions of Petitioner’s videotaped statement
to law enforcement (DE 1 at 16-22). Specifically,
Petitioner argues that his statements on the tape
about the victim being reliable and a good kid is
inadmissible character evidence that bolstered her
credibility. Id. He furthers that his additional
statements about previously touching her breast were
inadmissible evidence of a prior bad act and
substantially more prejudicial than probative. Id.
The post-conviction court rejected this claim for
two reasons. First, a motion in limine to exclude these
portions of the tape would likely have been
unsuccessful

because

these

statements

were

admissions against interest, and Respondent was
therefore entitled to present them to the jury (DE
11-15 at 13). Second, allowing the whole statement in
evidence was a reasonable strategy that enabled
A-83

Petitioner to proffer his own competing version about
what happened to the jury without having to take the
stand where he would be subject to cross-examination.
Id. A federal habeas court will not disturb a state-court
denial of an ineffective assistance of trial counsel claim
unless

the

state

court’s

determination

under

Strickland was unreasonable. Hittson, 759 F.3d at
1248.
This Court examines the post-conviction court’s
determinations in turn. First, Fla. Stat. § 90.803(18)(a)
permits as evidence an otherwise hearsay statement by
the party that is the party’s admission against his own
interests. This Court agrees with the post-conviction
court regarding the futility of a motion in limine to
exclude Petitioner’s statements. Petitioner fails to
persuade this Court that his counsel’s decision was
unsound or that there was a meritorious objection to
A-84

make. See Denson v. United States, 804 F.3d 1339,
1342 (11th Cir. 1994) (explaining that the failure to
raise

a

meritless

objection

is

not

deficient

performance); Bolender v. Singletary, 16 F.3d 1547,
1573 (11th Cir. 1994) (failure to raise non-meritorious
issues does not constitute ineffective assistance of
counsel). Murray v. Maggio, 736 F.2d 279, 283 (5th Cir.
1984) (“Counsel is not required to engage in the filing
of futile motions.”).
The record shows Mr. Fleischman’s strategic
decision not to file a motion in limine was reasonable,
moreover. Under Strickland, Petitioner must establish
the

incompetence of counsel to overcome the

presumption of adequate assistance. Hittson, 759 F.3d
at 1248. Mr. Fleischmann explained the benefits of
proffering Petitioner’s police statement to the jury at
the post-conviction hearing (DE 11-24 at 26-28). It was
A-85

true that Petitioner vouched for the victim but the
negative effect of those concessions on his defense were
minor. They were outweighed by the countervailing
theme of his interview of how he got along well with
Petitioner, his disbelief over why she would make up
the allegations, and his denial of the allegations’ truth.
Indeed, it may have been beneficial for the jury to hear
Petitioner speak of the victim in a positive way, this
Court adds. Mr. Fleischman also noted the delicate
balance between reminding the jury that children and
youth can be prone to make stories up but without
doing so in a way that comes across as aggressive
toward the accuser. This Court adds that a redacted
version of the police statement may not have been
beneficial necessarily (assuming that the trial court
would have granted such relief over what this Court
only can assume would be the State’s strong
A-86

opposition). It would have left the jury free to assume
that the gaps in the statement were more prejudicial
than what the redacted comments really were. Mr.
Fleischman also used the admission of the entire
statement to place Petitioner in a favorable light: in his
closing argument he emphasized how Petitioner was
not holding anything back and how he voluntarily and
without counsel had spoken to law enforcement (DE
11-24 at 26-28; DE 11-l at 549-50). On this record,
Petitioner fails to establish how counsel’s performance
was deficient.
The state post-conviction court determined first
that Petitioner’s statements – including his comments
about the victim being reliable and having touched her
breast accidently – were admissible as statements
against interest under § 90.803(18), Fla. Stat. Second,
it did not regard the strategic decision to allow the
A-87

entire statement in (rather than to seek a redacted
version through a motion in limine) as unreasonable
(DE 11-15 at 13). This Court finds its determination
entitled to deference. Because Petitioner does not
establish how the state post-conviction court’s adverse
decision is incorrect or unreasonable, he does not
establish entitlement to § 2254 relief on this claim.
Claim 3
In Claim 3, Petitioner contends that Mr.
Fleischman was ineffective because he impeached the
victim with an inconsistent statement she made prior
to trial about a particular detail of the “humping”
incident that was more incriminating to Petitioner
than what the victim stated on direct examination
during the trial. On direct examination, the victim
testified: “I was laying in my bed. I was going to sleep
and Mr. Hatton came in my room and he got on top of
A-88

me. Both of us had our clothes on and he started
humping me.” The prosecutor asked her whether
Petitioner said anything to her while humping her, and
she answered, “No, sir.” (DE 11-1 at p. 370). Mr.
Fleischman attempted to impeach her on that point
because she said something different on two prior
occasions. In her written statement to the police dated
June 21, 2005, she claimed Petitioner said “he wished
he could really stick his penis inside of me” (and thus
going beyond just humping through clothing). The
second prior inconsistent statement came from her
deposition on December 27, 2005. At her deposition,
she said Petitioner told her “it’s going to be okay. It’s
all right” during the humping incident. (DE 11-1 at p.
383). When Mr. Fleischman asked her to explain the
discrepancy between her present trial testimony and
prior statements, she answered, “I don’t really
A-89

remember”. (DE 11-1 at p. 381).
The ineffective assistance of counsel argument
concerns the victim’s written statement to police where
she claimed Petitioner said “he wished he could really
stick his penis inside of me”. Petitioner argues that
introducing this statement to impeach her was overly
prejudicial because it was worse for him than her
testimony on direct examination that Petitioner had
not said anything. Petitioner argues that this
statement provided the jury with the evidence it
needed to decide the intent element of Count 2 in the
prosecution’s favor. Petitioner points out how at the
postconviction hearing Mr. Fleischman even conceded
that the statement “sounds bad”. (DE 11-24 at p. 22).
Petitioner’s expert witness, Mr. Shafer, went further.
He opined that impeaching the victim’s trial testimony
(that Petitioner said nothing during the humping
A-90

incident) with what she told the police Petitioner said
“makes it even worse.” Mr. Shafer described the
impeachment attempt as a huge backfire that fell flat.
Mr. Shafer opined that it was not a reasonable strategy
to present it as impeachment evidence. (DE 11-24 at p.
73).
While it is true that impeaching the victim
allowed a relatively worse statement to come into the
record, this Court disagrees that the impeachment
strategy was so wholly unreasonable as to rise to the
level of deficient performance under Strickland. First,
as Mr. Shafer, himself, stressed, the issue did not arise
by itself in a vacuum but in the context of other
ancillary issues. Mr. Fleischman was not impeaching
the victim on that particular point alone but also on
the differing timeframes the victim was asserting.
Moreover Mr. Fleischman saw need to bring the jury’s
A-91

attention to discrepancies in the victim’s versions of
what happened so that the jury had a basis to consider
her credibility and reliability. Indeed, at the
post-conviction hearing, although conceding that the
police statement sounded bad, Mr. Fleischman’s
greater point was that it would have been worse had he
not brought her credibility into question at all. As he
explained it at the postconviction court hearing:
I don’t care what [is] said if it’s different
from what she said in trial then it’s a
prior inconsistent statement. I’m allowed
to confront the witness that in the past
she’s given a statement different than she
gave in court. The jury’s instructed on
that at the conclusion of the trial. They
can take that into account. I hear what
you’re saying because, you know, it
A-92

sounds bad, but the point is she didn’t
bring it up. If I didn’t do that we’d be here
because the defendant would say, “Well,
she made a statement different than
what she testified in court, you didn’t
cross examine her on it.” So I understand
it is an issue to raise, but I disagree, you
know, I in normal course cross examine
alleged victims or even a witness, police
officer, on prior inconsistent statements
and that’s why I did it.
Although it may have been an awkward
statement

to

highlight,

this

Court

sees

no

Strickland-level prejudice. Petitioner was pursuing a
defense of fabrication – that is, that the victim was
lying. Emphasizing her inconsistent statements was a
reasonable means of demonstrating this. In his closing
A-93

argument, Mr. Fleischman stressed to the jury how the
victim could not remember basic details of what
happened because she was alleging incidents that
“never occurred” (DE 11-1 at 554). It is also important
to note that allegations of sexual molestation already
were at issue, and the State was prosecuting them to
their fullest extent. The jury had additional evidence
from which to determine Petitioner’s intent other than
what the victim stated to the police. That would not
have changed even if Mr. Fleischman had not
highlighted her inconsistent statement.
Of course, the governing standard of review does
not ask this Court to make its own de nova
determination. Instead it asks this Court to consider
the post-conviction court’s determination through a
deferential lens. The post-conviction court considered
Mr. Fleischman’s use of the inconsistent statement for
A-94

impeachment purposes to be an effective and
appropriate method to discredit the victim’s testimony
(DE 11-15 at 14). The post-conviction court explained
that:
impeaching a witness, especially an
alleged victim or eyewitness, with a prior
inconsistent statement is a very effective
and

appropriate

way

to

discredit

testimony. Mr. Fleischman’s goal was to
show to the jury [that] the alleged victim
was unable to recall an important detail
on direct examination. While Mr. Shafer
opined this was not a reasonable strategy
given the evidence, Mr. Fleischman
testified had he not impeached the victim
with a prior inconsistent statement he
would be criticized for being ineffective
A-95

for not doing so.
Because reasonable and experienced counsel can
disagree on the matter, Petitioner fails to show Mr.
Fleischman’s action was so deficient that it was
tantamount to having no counsel at all, the
post-conviction court concluded. (DE 11-15 at p. 14-15).
This Court agrees. Petitioner fails to show how trial
counsel’s tactic here is “so patently unreasonable that
no competent attorney would have chosen it.” Dingle,
480 F.3d at 1099. Because Petitioner has not carried
his burden to show trial counsel’s performance was
deficient or caused prejudice to the degree Strickland
requires, Claim 3 should be denied.
Claim 4
In Claim 4, Petitioner argues that his trial
counsel, Mr. Fleischman, was ineffective for not
proffering his private investigator (Jim Mueller) to
A-96

impeach the prosecution’s witness, K.S. K.S. was the
victim’s thirteen-year-old cousin who reported seeing
Petitioner’s hand down the back of the victim’s pants
when the victim lay on top of Petitioner in his bed. (DE
11-1 at 427-31). The private investigator believed that
from where K.S. was standing, he could not have seen
what he reported, Petitioner argues at page 26 of his
Petition (DE 1).
While he may not have called the private
investigator to the stand, Mr. Fleischman raised that
same point to the jury nonetheless. Mr. Fleischman
used his cross-examination of Detective Altman to
challenge the reliability of K.S.’s report in several
respects. Mr. Fleischman clarified for the record that
the detective had not viewed the physical lay-out
himself or otherwise obtained a description of it. Mr.
Fleischman clarified for the record that the detective
A-97

did not verify whether K.S. actually could have seen
what he reported from where K.S. says he was
standing. Instead the detective simply assumed as true
that K.S. could have observed what he reported from
where K.S. says his vantage point was (standing in the
hallway 14 ft. away). That cross-examination runs
from page 490 to 493 of DE 11-1. Mr. Fleischman
argued that point again in his closing argument. He
emphasized the detective’s reliance on K.S.’s statement
that he was standing 14 ft. or more away and the
several issues with it:
First of all, uh, the first one that should
jump out at you is that it’s different
[than] his version that he gave in court in
regards

to

his

position.

Secondly,

Detective Altman in this case failed to go
to the scene to see if, in fact, from
A-98

fourteen to fifteen feet you can even see
into the bedroom. In other words, maybe
you can see the door, but there’s no
evidence in this case that you can
actually see the location where she claims
this occurred from fourteen or fifteen feet.
(DE 11-1 at p. 548).
Petitioner

establishes

neither

deficient

performance nor prejudice under Strickland on this
point. Whether or not to call a witness “is the epitome
of a strategic decision” that a federal habeas court “will
seldom, if ever, second guess.” Conklin v. Schofield, 366
F.3d 1191, 1204 (11th Cir.2004). Indeed, calling a
witness to impeach K.S. as to his conflicting
statements about what he could see and from where
might not have been as beneficial as Petitioner
portrays. For one, there was not that much in K.S.’s
A-99

trial testimony to impeach in the first place. As far as
the trial testimony of K.S., he said only that he had
approached the master bedroom from the hallway
when he saw the victim on top of Petitioner and
Petitioner’s hand partly down the back of her pants.
(DE 11-1 at p. 430). No further information about the
physical lay-out of the space or the witness’s distance
from the victim was given. The claim that K.S. was 14
feet away from the victim comes from K.S.’ statements
during his police interview, as summarized in the
arrest affidavit. (DE 11-1 at p. 19). At trial, the
prosecutor did not elicit any testimony from K.S. about
his vantage point. That lessened the need of Mr.
Fleischman to make a direct counter-attack. Instead
Mr. Fleischman used his cross examination of the
detective to bring to the jury’s attention issues over the
K.S.’ vantage point and to create doubt in the jurors’
A-100

minds about what K.S. could have seen. This strategy
made sense because attempting to impeach K.S.
directly could have backfired. It could have placed the
witness, who still was a minor when he testified, in a
sympathetic light. It could also have brought attention
to this particular point in a way that caused the
prosecution to address it affirmatively, and possibly
prove that K.S. actually did have a good vantage point,
after all. The prosecutor could have done that either by
recalling K.S. to the stand or by cross-examining the
private investigator to test whether a person standing
in the hallway looking into the bedroom would have a
sufficient line of sight to observe what K.S. reported.
That would have undermined Mr. Fleischman’s ability
to create the kind of doubt needed as to this particular
count.
Moreover, as the fact-finder, the jury was free to
A-101

resolve this particular dispute in the State’s favor and
to find K.S.’s testimony credible and reliable. Federal
habeas courts presume that the jury resolves
conflicting inferences from the factual record in favor
of the government and defer to the jury’s judgment as
to witness credibility and the weight to be given to the
evidence. Johnson v. Alabama, 256 F.3d 1156, 1172
(11th Cir. 2001). Here, K.S. testified about what he
observed and that it concerned him enough to report it
to his mother. (D.E. 11-1 at 431-33). The jury was free
to believe him even though Petitioner’s counsel raised
doubts over his ability to observe what he said he saw.
Because Petitioner has established neither deficient
performance nor prejudice, this Court finds Claim 4 to
be without merit.
Claim 5
Claim 5 alleges that Mr. Fleischman was
A-102

ineffective for not taking corrective action when the
victim’s

written

inadvertently

statement

given

to

the

to

the

jury

police

was

during

jury

deliberations. The record before this Court does not
contain that written statement. Presumably it is the
one the victim wrote on June 21, 2005 and gave to
Detective Palmer (the same written statement that is
subject of Claim 3 above). As this Court discusses
above with respect to Claim 3, the victim’s written
statement became a trial issue when Mr. Fleischman
used it to impeach her. (DE 11-1 at p. 383). That
prompted the prosecutor to move to introduce the
written statement into evidence. Mr. Fleischman
objected on the basis that his cross examination was
limited to very narrow aspects of the statement and
admitting it in its entirety would greatly exceed the
scope of his questions. Mr. Fleischman also argued that
A-103

the written statement referred to additional collateral
acts that exceeded the scope of the criminal charges.
The prosecutor, Mr. Fleischman, and the trial court
discussed the issue at length. The trial court resolved
the issue by admitting the statement as State’s Exhibit
1 but without publishing it to the jury. (DE 11-1 at p.
422). That compromise solution remained in effect at
the end of the trial. When the subject of the written
statement arose again, the prosecutor expressed his
agreement with the correctness of the ruling and
withdrew his request to place it into evidence for the
jury. The trial court re-iterated its prior ruling that
while the written statement was admitted into
evidence for the practical purpose of letting “the record
reflect[] what we are talking about . . . the jury will not
view [it].” (DE 11-1 at p. 497-98).
During its deliberation, the jury sent several
A-104

questions to the trial court. Its questions included a
request for “a list of exhibits entered into evidence.”
The reason behind that request was unclear. Counsel
agreed that if it was some sort of inquiry about the
victim’s written statement, the trial court could answer
that it had been marked as an exhibit but was not
evidence for the jury’s consideration. When the jury
was brought into the courtroom, the trial court saw no
need to address the non-published written statement,
however. The trial court answered the request by
simply instructing the jury that “the only evidence that
has been entered for your review is the, uh, is the
taped recording between Detective Altman and Mr.
Hatton.” (DE 11-1 at pp. 607-10). The jury asked no
follow-up questions and was dismissed to resume its
deliberations. (DE 11-1 at p. 636). On direct appeal, no
issue was raised concerning the manner in which the
A-105

written statement was admitted or whether it
somehow made it back to the jury deliberation room
accidently. (DE 11-2).
In his pro se Rule 3.850 Motion, Petitioner
reasoned that the written statement must have made
it back to the jury deliberation or else why would the
jury have asked for a list of exhibits entered into
evidence? Because it contains highly prejudicial
information,

Petitioner

argued

that

the

jury’s

possession of the written statement constitutes both
“fundamental error on behalf of the court as well as
ineffectiveness by trial counsel.” (DE 16-1 at p. 6).
Notably the Petitioner attached no evidence to his pro
se Rule 3.850 Motion to show that the jury actually
had possession of the victim’s written statement. His
assertion that they possessed the document was based
on his assumption about the reason behind the jury’s
A-106

request for an exhibit list.
Now, at pages 28-29 of the instant Petition filed
in this case, Petitioner asserts an additional reason for
why he believes the jury was given the victim’s written
statement. Petitioner now claims that:
at the conclusion of the trial, when the
jury retired to deliberate, ([his] wife---who
was present in the courtroom) observed
State’s Exhibit

1

go back

to

the

deliberation room. Mrs. Hatton informed
defense counsel of this error but defense
counsel refused to address the issue with
the state trial court or otherwise move for
a mistrial in light of the fact that the jury
was exposed to State’s Exhibit 1.
In other words, the Petition pending before this Court
goes beyond the Rule 3.850 Motion’s supposition and
A-107

makes a direct assertion that Petitioner’s wife saw the
written statement go back to the jury deliberation
room. Petitioner still proffers no direct evidence to
substantiate this claim, however. Namely, Petitioner
does not proffer an affidavit from his wife wherein she
attests to the same. Without some evidence that (1) the
victim’s written statement actually did go back to the
jury deliberation room despite the trial court’s express
and repeat rulings to the contrary, (2) Mr. Fleischman
actually knew that fact, and (3) Mr. Fleischman
nevertheless sought no corrective relief and otherwise
ignored this occurrence, Petitioner’s contention that
Mr. Fleischman “was ineffective for failing to object
when the jurors were exposed to [the] improper
collateral act evidence” contained within it is purely
speculative.
“Bare and conclusory allegations of ineffective
A-108

assistance of counsel which contradict the existing
record and are unsupported by affidavits or other
indicia of reliability, are insufficient to require a
hearing or further consideration.” Cauley v. United
States, No. 03-20294-CR-LENARD, 2008 WL 4716961,
at *7 (S.D. Fla. Oct. 23, 2008), aff’d, 406 F. App’x 386
(11th Cir. 2010) (stating also that habeas relief is
unavailable for allegations that on the face of the
record are wholly incredible). Here, not only is
Petitioner’s allegation unsupported, but it actually
conflicts with what the record suggests. The trial
transcript shows that Mr. Fleischman argued at
length—and successfully so—to keep the victim’s
written statement from being published to the jury.
(DE 11-1 at 390-423). Therefore, it is doubtful that he
would have simply ignored the issue of what was going
back to the jury at the critical deliberation phase. On
A-109

the face of the record, then, this Court finds
Petitioner’s allegation insufficient as a basis for relief.
In addition, even if the exhibit did go back to the jury
inadvertently, that does not mean that the jury in fact
reviewed and considered it. The jury asked about the
“[l]ist of exhibits entered into evidence” and the trial
court instructed the jury that the only evidence that
had been entered for its review was the videotaped
recording between law enforcement and Petitioner. Id.
at 610. Jurors are presumed to have followed
instructions given by the trial court. Raulerson v.
Wainwright, 753 F.2d 869, 876 (11th Cir. 1985).
Petitioner

alleges

nothing

to

overcome

this

presumption. Thus, Claim 5 should be denied.
Claim 6
Petitioner alleges

in Claim

6

that

Mr.

Fleischman was ineffective for failing to call
A-110

Petitioner’s step-brother as a witness to testify about
the victim’s propensity to jump on top of other men and
lie on top of them. His step-brother would have
testified that the victim did the same to him, even
when she first met him. She did so in the presence of
several others, and she lay on top of him while he was
reclined in a reclining chair. Petitioner would have
proffered this testimony to counter the prosecution’s
contention that the same conduct with him was
unlawful (DE 1 at 30). A federal habeas court is
reluctant to question a trial counsel’s strategic decision
over whether or when to call a witness, see Conklin,
366 F.3d at 1204), and a federal habeas court likewise
is unlikely to ever question trial counsel’s decision to
refrain

from

proffering

irrelevant

testimony.

Specifically, Petitioner complains that his inability to
present this testimony was prejudicial because it was
A-111

testimony from a third party that attributed that
action to the victim’s behavior (rather than to an
unlawful intent by him). Id. The allegations against
Petitioner, however, were not that the victim’s jumping
on him were illegal. The Count 3 charge against
Petitioner stems from the fact that after the victim
“jumped on” Petitioner, he then put his hands down
the back of her pants and touched her buttocks with an
unlawful intent (DE 365-66 & 375-76). That the victim
may have, even with some frequency, “jumped on” men
in a playful manner is not a defense nor is it relevant
to the act with which Petitioner is charged. Nor can
Petitioner demonstrate that the trial court would have
admitted such testimony into the record. The trial
court already had excluded a range of additional such
evidence on relevance grounds. Therefore, Mr.
Fleischman’s performance cannot be deficient for
A-112

failing to call such a witness to testify, and Petitioner
cannot establish prejudice from the inability to proffer
irrelevant testimony. Thus, this Court concludes there
is no rational basis on which Claim 6 could succeed.
Claim 7
In Claim 7, Petitioner argues that trial counsel’s
cumulative errors (as set forth in Claims 1 through 6)
deprived him of a fair trial. As Respondent correctly
argues, if there were no errors, there can be no
cumulative error (DE 10 at 21). A “cumulative error
claim clearly fails in light of the absence of any
individual errors to accumulate.” Morris v. Sec’y, Dep’t
of Corr., 677 F.3d 1117, 1132 (11th Cir. 2012) Claims
found to be without merit cannot be aggregated to
show denial of a constitutional right. Here, this Court
finds that none of Petitioner’s ineffective assistance of
counsel claims have merit. Accordingly, Claim 7 should
A-113

be denied.
Claim 8
Claim 8 alleges that the trial court erred when
it denied Petitioner’s request to call three witnesses
who would testify that the victim has acted out
sexually in front of other males and may have had a
sexual relationship with her cousin, K.S., (who also
was a State witness). (DE 1 at 33-35). Petitioner
argued that this information was relevant to its
defense of “fabrication,” that is, that the victim was
lying about the molestation acts and was motivated to
lie to stop her family’s planned move away from the
area. Moreover, this information showed the victim
had independent personal knowledge and experience
sufficient to enable her to make up false molestation
accusations, Petitioner claimed. Petitioner argues that
the trial court’s ruling prohibiting testimony about the
A-114

victim’s sexual behavior and the appellate court’s
affirmance denied him due process (DE 1 at 32).
A federal habeas court generally does not review
a state trial court’s evidentiary ruling collaterally.
Taylor v. Sec’y, Fla. Dep’t of Corr., 760 F.3d 1284, 1295
(11th Cir. 2014). When a federal habeas court does do
so, its collateral review of the state court’s evidentiary
ruling is limited to whether it rises to a level of
unfairness that denies a petitioner due process of law.
Id. The state trial court has discretion, but that
discretion is subject to the right of the accused
defendant to a fair opportunity to defend against the
charges. Chambers v. Mississippi, 410 U.S. 284, 294
(1973).
Mr. Fleischman gave the trial court a synopsis
of the testimony the witnesses would proffer in support
of his defense of fabrication. (DE 11-1 at 441-49). The
A-115

first witness was a juvenile, J.R., who met the victim
and the victim’s cousin, K.S., for the first time at the
Cattleman’s Convention on Marco Island. That was
soon after the molestation incident subject of the third
criminal count. J.R. would have testified that the
victim:
while with K.S. at the pool, was acting in
a, he calls it a come on manner. She was
strutting around, acting out somewhat
sexually. And then she later that evening
called him up to her room. He went up to
her room with himself and another friend
and she was throwing herself on the lap
of his friend and grabbing his friend’s
groin.
(DE 11-1 at 441). Mr. Fleischman told the trial court
that he wanted to proffer that testimony to show how
A-116

the victim was not naive but rather was able to
describe the acts she accused Petitioner of committing.
Id. at 442. The trial court declined to admit this
evidence because it lacked relevance. The victim, who
was 14 at the time, was not claiming a lack of
knowledge or naivety. Moreover, her description of the
acts Petitioner committed upon her were generalized
and limited in scope to “the touching of the buttocks,
the touching of a penis, and a French kiss and a
humping of a hip.” Id. at 445. These were not acts that
required any particular sophistication or naivete on the
victim’s part. The court denied counsel’s request to
permit J.R. to testify about any prior independent “bad
acts” by the victim. Id. at 446.
The second witness Mr. Fleischman proffered
was Petitioner’s son. Petitioner’s son would testify that
on one occasion---he believes it was on Fathers’ Day
A-117

2003---“he found [the victim] and K.S. alone in a
darkened bathroom lying next to each other and he
startled them and when he confronted them about
what they were doing they wouldn’t answer.” Id. at
447. Petitioner’s son would testify that it was not
uncommon for the victim to throw herself on members
of the family and that she “tried on numerous occasions
to get in bed with him, but he didn’t allow it.” Id. at
447-48. In barring the son’s testimony, the trial court
made “the same ruling from the same basis” as it had
done for the first witness, J.R., discussed above. Id. at
448.
The third witness, C.J., would testify that while
at the Petitioner’s property, he happened to see the
victim run out of a barn wearing only her underwear.
When he approached the barn to investigate, he saw a
young man run out of the barn in the opposite
A-118

direction. Id. at 449. The trial court barred that
testimony on the same grounds as the first two
prospective witnesses. Indeed, the trial court found
C.J.’s testimony to have even less relevance to the
Petitioner’s fabrication defense theory. Id. at 449.
The trial court’s decision to preclude the
proposed defense witnesses’ testimony did not rise to
the level of denying due process to Petitioner.
Petitioner sought to discredit the victim with potential
prior “bad acts” that implied her independent personal
familiarity and experience. The witnesses would have
proffered testimony that could only establish the
possibility of a prior sexual history between the victim
and others. The trial court reasonably found this entire
line of questioning irrelevant because the nature of the
allegations did not require the victim to have previous
sexual experience to be able to describe the conduct of
A-119

Petitioner that was at issue: touching of buttocks and
penis, humping, and a French kiss. Petitioner does not
meet his burden to show how fair-minded jurists would
disagree with the trial court’s ruling. Consequently,
Petitioner does not show how his trial was rendered
fundamentally unfair. Claim 8 therefore should be
denied.
Claim 9
In Claim 9, Petitioner alleges that the trial court
erred by denying his motion for judgment of acquittal
on Counts 1 and 2. He argues further that insufficient
evidence existed to prove the respective timeframes
that had been charged as a required element of the two
offenses.

For

a

petitioner

to

succeed

on

a

sufficiency-of-the-evidence claim in a federal habeas
proceeding, he must show that no rational trier of fact
could have found the elements of the crime beyond a
A-120

reasonable doubt. Holley v. Sec’y, Fla. Dep’t of Corr.,
719 F. App’x 962, 966–67 (11th Cir. 2017) (citing
Jackson v. Virginia, 443 U.S. 307, 319 (1979) and
explaining that the evidence is viewed in the light most
favorable to the prosecution). For a federal court to
overturn a state court’s rejection of such a claim, the
state court decision must be objectively unreasonable.
Id. (citing Parker v. Matthews, 567 U.S. 37, 43 (2012)).
Additionally,

where

“the

record contains

facts

supporting conflicting inferences, the jury is presumed
to have resolved those conflicts in favor of [Respondent]
and against the [Petitioner].” Id. (citing Johnson v.
Alabama, 256 F.3d 1156, 1172 (11th Cir. 2001)).
Federal courts, therefore, defer to the judgment of the
jury in matters concerning witness credibility and
weight of the evidence. Id.
At trial and on direct appeal, Petitioner argued
A-121

that the State had failed to prove that the illegal
conduct charged in Counts 1 and 2 occurred during the
timeframes as specifically charged, thereby warranting
acquittals (DE 1 at 36-39). Petitioner argued that the
State failed to prove Count 3 beyond a reasonable
doubt, too (DE 11-4 at 10; DE 1 at 36-39). Petitioner
argued that because the victim had given different
timeframes as to Counts 1 and Count 2, and could not
explain the discrepancies, the findings of guilt were
unreasonable. Id. Relevant to Count 1, the victim
testified at trial that before the hurricanes in
September 2004, Petitioner grabbed her hand while
they were in their swimming pool to make her touch
his penis (DE 11-1 at 368-70). This occurred during the
timeframe of December 20, 2003 through September
26, 2004, the prosecution charged. Id. at 638. The jury
found Petitioner guilty of that molestation. As to count
A-122

2, the victim testified that Petitioner had rubbed his
genitals

against

her

pelvic

bone---or

“humped

her”—and that she thought it probably took place
before the pool incident. Id. at 369-71. She also
testified that she did not know the date of the incident
except that it was at night and probably on a Monday
or Tuesday when her mother worked late. Id. at
369-70, 380. On cross-examination she testified that
the humping incident occurred three months before she
gave her written statement to law enforcement of June
21, 2005. Id. at 383-84. The jury found Petitioner
guilty of the conduct charged during the timeframe of
September 27, 2004 through June 13, 2005. Id. at 638.
Count 3 charged Petitioner with placing his hands
down the back of the victim’s pants to touch her bare
buttocks while on Petitioner’s bed on June 14, 2005
just prior to a trip to Marco Island. Id. at 365- 66, 638.
A-123

The victim testified that this touching incident
occurred after she playfully jumped on Petitioner and
laid on top of him. Id. at 373-76. That was the incident
when the victim’s thirteen-year-old cousin, K.S.,
observed Petitioner’s hand partly down the back of the
victim’s pants and was concerned enough to tell his
mother. That ultimately led to the victim giving a
statement to law enforcement on June 21, 2005. Id. at
430-33, 454, 455, 460-61. Viewing the testimony and
facts in the light most favorable to Respondent, it is
not inconceivable that a rational trier of fact could find
Petitioner guilty as charged on all three counts. This
Court presumes that in reaching its findings of guilt,
the jury resolved evidentiary conflicts in favor of the
State and made reasonable fact determinations on the
evidence presented. Accordingly, this Court finds that
Claim 9 provides no basis for relief.
A-124

Claim 10
Claim 10 alleges that the trial court erred by not
giving written instructions to the jury to take back
with them during deliberations. As a result, Petitioner
contends, he was denied his Sixth Amendment right to
have the jury determine the respective timeframe for
each count charged as a required element of the offense
(DE 1 at 40-41). The basis for this claim is that the
trial court verbally misstated the timeframe as to
count 18 during the jury instructions that it read orally
and then corrected that misstatement by amending the
jury verdict form with the correct timeframes. Id.
Habeas relief is not available for a jury instruction that
is incorrect under state law; the only question a federal
habeas court may examine is whether the erroneous

8 The trial court orally misstated the timeframe for count
I as December 20, 2003 through December 26, 2004 (DE
11-1 at 595) rather than the correct timeframe of December
20, 2003 through September 26, 2004 (DE 11-1 at 602).

A-125

instruction “so infected the entire trial that the
resulting conviction violates due process.” Trice v.
Sec’y, Fla. Dep’t of Corr., 766 F. App’x 840, 850 (11th
Cir. 2019) (citing Estelle v. McGuire, 502 U.S. 62,
71–72 (1991)). A federal habeas court looks at the trial
record and the context of the instructions in total when
making this determination. Id.
The Respondent points out how at the time Fla.
R. Crim. P. 3.400 (2005) gave the trial court the
discretion to decide whether to provide written jury
instructions to the jury for its deliberations. The rule
states in relevant part:
(a) Discretionary Materials. The court
may permit the jury, upon retiring for
deliberation, to take to the jury room:
(1) a copy of the charges
against the defendant;
A-126

(2) forms of verdict approved
by the court, after being
first submitted to counsel;
(3) in noncapital cases, any
instructions given, but if
any instructions is taken all
the instructions shall be
taken;
Fla. R. Crim. P. 3.400 (2005). The trial judge explained
that he did not provide written instructions to the jury
because they were not requested until the time when
deliberations were to begin and by that point the judge
had written on his copy (DE 11-1 at 603-05). Instead
the trial judge informed the jury of the correct dates for
each charge on the verdict form and gave the jury the
option of sending him a note should it later have
questions about the instructions. If so prompted, he
A-127

then would re-read orally the pertinent instructions to
the jury. Id. Here, the trial court’s misstatement
during the oral presentation of the jury instructions
cannot be said to have infected the entire trial because
the court provided the jury with the correct dates for
each charge in writing on an amended verdict form.
Also, the court told the jury they could ask questions
about the instructions and have the jury instructions
re-read to them. Under these circumstances, the lack
of written jury instructions cannot be said to have
made the trial so fundamentally unfair as to deny
Petitioner due process. The jury had the correct dates
during their deliberations, they were read the jury
instructions, they had the opportunity to have the jury
instructions re-read to them, and they had the ability
to have the court answer questions about the
instructions. Therefore, this Court finds Claim 10 lacks
A-128

merit.
This Court adds that the issues concerning the
timeframes as alleged in the offense counts and the
way that information was conveyed to the jury was
discussed at the trial and appellate levels of review in
depth. In its Answer Brief the State set forth
arguments for why no reversible error occurred and
why the record contained evidence to reasonably
support the three guilty verdicts. The state appellate
court affirmed the conviction. Petitioner makes no
persuasive argument for an error of constitutional
proportion that would justify habeas corpus relief on
those matters that the state appellate court affirmed.
EVIDENTIARY HEARING
Lastly

this

Court

considers whether

an

evidentiary hearing should be held. This Court begins
by considering whether 28 U.S.C. § 2254(e) bars this
A-129

Court from holding a hearing. Section 2254(e)(2) bars
an evidentiary hearing if the Petitioner failed to
develop the factual basis of his claims in the state court
proceedings. Here, Petitioner fully developed all but
Claims 4, 5 and 6 in the state post-conviction court.
While the state court dismissed Claims 4, 5 and 6 as
insufficiently pleaded, the state court record is
adequate to permit this Court to resolve them on their
merits.
Next, this Court considers the standard that
governs the decision of whether to hold an evidentiary
hearing when the limitations of § 2254(e) do not apply.
The decision whether to grant an evidentiary hearing
is left to this Court’s sound discretion. This Court must
review the available record and determine whether an
evidentiary hearing is warranted. To guide the
determination the Eleventh Circuit directs this Court
A-130

to consider several factors. First, this Court must
consider whether there are disputed facts concerning
the Petitioner’s claims for which the Petitioner did not
receive a full and fair hearing from the state
postconviction court. Second, this Court must consider
whether the Petitioner’s fact allegations, if he could
prove them true, would entitle him to prevail on his
Petition. Third, in making that determination of
whether the Petitioner can prevail on the merits of his
claims, this Court also must keep in mind the
deference that § 2254 gives to the state postconviction
court’s ruling. Fourth, this Court must consider the
nature of the Petitioner’s fact allegations. If they are
merely conclusory and unsupported by specifics, the
evidentiary hearing request may be denied. See Boyd
v. Allen, 592 F.3d 1274, 1304-05 (11th Cir. 2010).
The present record presents no disputes of fact
A-131

per se that require resolution. Only Claim 5-regarding whether Mr. Fleischman ignored the jury’s
receipt of the victim’s written statement during
deliberations --raises a potential evidentiary conflict
(in the sense that the existing record does not show
that it happened). Given the length to which Mr.
Fleischman went at trial to prevent the written
statement from becoming an exhibit at all, it seems
highly doubtful that he suddenly would be so
indifferent about it as to let it inadvertently go back
into the jury room during deliberations. In any event
Petitioner offers no evidence to corroborate this claim
and

makes

only

unsupported

allegations

and

suppositions. Claim 5 is therefore properly denied
without an evidentiary hearing. This Court is able to
assess Petitioner’s other claims without the need to
further develop the record. Thus, an evidentiary
A-132

hearing is not warranted.
CONCLUSION
Based upon the foregoing, it is recommended
that this Petition for Writ of Habeas Corpus (DE 1) be
DENIED.
The parties shall have fourteen (14) days from
the date of this Report and Recommendation within
which to file objections, if any, with the Honorable
Donald M. Middlebrooks, the United States District
Judge assigned to this case. Failure to file timely
objections shall bar the parties from a de novo
determination by the District Court of the issues
covered in this Report and Recommendation and bar
the parties from attacking on appeal the factual
findings contained herein. LoConte v. Dugger, 847 F.2d
745, 749––50 (11th Cir. 1988), cert. denied, 488 U.S.
958 (1988).
A-133

DONE AND SUBMITTED in Chambers at
Fort Pierce, Florida, this 2nd day of December, 2019.
[signature of Shaniek M. Maynard]
SHANIEK M. MAYNARD
UNITED STATES MAGISTRATE JUDGE

A-134

Excerpt from the trial transcript, pages 146 &
151:
MR. FLEISCHMAN [defense counsel]: Good
morning. I want to start where I believe I started jury
selection and that is reminding everyone that Mr.
Hatton is presumed innocent.
....
The State cannot prove this case beyond a
reasonable doubt. Hatton didn’t touch this girl in any
manner sexually or otherwise, and he is not guilty.
And again, keep an open mind, hold the State to their
burden. I don’t have to prove or disprove anything and
that we feel confident that at the end of this case you
will, in fact, find Hatton guilty (sic) on all counts.
Thank you.

THE COURT: Okay.
A-135

Excerpt from the postconviction evidentiary
hearing transcript, pages 61-64, 67-69, 71-72:

[Mr. Pumphrey, defense counsel]: Q

Okay.

And so I want to start with this, and I’m again quoting
from the transcript. At the end of the closing statement
and I’ll – I’ll read you this last sentence.

[Expert witness, Mr. Shafer]: A Yes sir.

Q It’s page one fifty-one. “I don’t have to prove
or disprove anything and that we feel confident that at
the end of this case you will, in fact, find Hatton guilty
on all counts.”

A Was that the closing?

A-136

Q That was the opening statement.

A Opening statement, yes sir.

Q Now having – having worked in criminal
defense you’re familiar with the importance of – of trial
and the timing of what you’re imparting as a
representative of your client to a jury.

A Absolutely.

Q And usually the last thing, or – or is it, and
you – you tell me, but is the last thing you leave with
the jury before you emphasize and there’s that pause
before the proceedings start, is that an important
component of the opening statement?

A-137

A Well, it’s the – I’ve always ascribed to the
theory of priv – primacy and recency. And recency is
generally the thought is that individuals will
remember the first things that are said to them and
the last things that are said to them. And the last
thing in that particular section of the trial was as – as
you’ve just read it what the defense attorney had said
to that jury. Uh huh.

Q And – and as the defense attorney or as any
attorney we’re all human.

A. Absolutely.

Q But let’s talk a minute about that. You as a
criminal defense attorney if you misspoke at – at that
phase what would be your action with the court in – in
A-138

trying to make sure that your client received a fair
trial?

A

Well, I mean that – that question

presupposes that I recognized that I had misspoken
while discussing the case in front of that jury, is that
accurate?

Q That – that is accurate.

A Okay. The – at that stage of the proceedings
there’s been jury selection and opening statements and
I think that a course of action would be to at least ask
the court to approach the bench and tell the judge, the
presiding judge, that I think I have misspoken and
certainly misspoken gravely. And that I would ask the
court to at a minimum to either have the court reporter
A-139

read back what – what has been transcribed or –
and/or if there were audiotapes, have the audio
listened to to make sure that – that, in fact, I had if I
had some thought that that had occurred. And if so I
would have at that point I would – I would think an
attorney in a case such as this with the stakes being
what they were, would have asked that a mistrial be
declared.

Q Now if the jurors are paying attention and
doing their duty. Is there any tactical reason to tell a
jury, as a defense attorney to find we’re confident or –
or and I’m paraphrasing so I’ll refer to the actual
transcript. “– you will, in fact, find Hatton guilty on all
counts.”

A As a trial strategy making that statement? I
A-140

cannot imagine a scenario. I just can’t.

Q So is there – is there – is there a danger, a
grave danger that that bell, like some of the bells that
are sometimes rung in trials, not purposely, but
unintentionally, is there any way you can see to unring
that bell?

A

You know, I – I read through the – the

various documents and I’ve been rolling that around in
my head and I think this type of a case with – I don’t
think there would be a way to unring the bell, put the
cow back in the barn, whatever the metaphor might be.
I think that it would be incumbent upon the attorney
to – to move for a mistrial, at least to protect the
record. It’s – it’s the – there’s no way of knowing how
that was – how that was consumed, if you will, by the
A-141

jury. And if – if the jury sees and hears the defense
counsel making that type of a statement as early as
opening statement as to, you know, how they looked at
the rest of the evidence in the trial and the – and the
– the questioning and the arguments that the attorney
made subsequent to making that statement. I think
that was it was not something a reasonable attorney
would do.

Q

And as a defense attorney based on your

training and your experience can you opine as your
concern just having that statement be made even
accidentally or – but especially at

the end of the

opening statement?

A

Well, just a few minutes ago we discussed

briefly primacy and recency and there are different
A-142

schools of thought, trial strategy as to winning a case.
You win – some I ascribe to the strategy that you win
a case in jury selection and opening statement. I don’t
know if I ascribe to that. But I certainly know that you
can lose a case on opening statement and certainly by
making a statement as – as important as that, I just
think it would have infected the – the entire trial
proceeding.

....

Q

Is there any tactical reason to leave that

statement in and allow that to be played for the jury
that the victim making the allegation is reliable?

A Certainly not that particular statement and
certainly not with the – with the case setting as it’s set,
A-143

and at least two of the counts, and it affects all three,
affects all three, but certainly the two counts that don’t
have any eye – other eyewitness testimony besides the
– the victims I would think that the reasonable course
of action would have been to move in Limine to keep
that part of the statement out, to redact that
statement.

Q

Could that in any way pretrial out of the

presence of the jury have any appearance of attacking
the victim by asking that those certain statements
made by Mr. Hatton be redacted?

A Out of the presence of the jury?

Q Yes sir.

A-144

A In pretrial or during trial? I – I cannot see
how that would be some – in some form or fashion a
thought that it would have attacked the victim in the
case.

Q In this case concerning Mr. Hatton is there
any tactical reason as a criminal defense attorney with
your experience, is there any tactical reason you would
allow, and I’ll – I’ll go through these – these
statements that were allowed, that the – talking about
the victim. “Okay. Would you categorize her as a kid?
Is she a good kid?” “Mr. Hatton: A very good kid.”
“Okay. Is she pretty reliable?” “Oh, I would say
reliable, yes.” And then finally not dealing with
credibility is there any tactical reason to allow the I
jury to hear, not introduced into evidence by anyone
except through this. “Have you – “ This is Detective
A-145

Altman, this is page two seventy-four, line eight. “Have
you ever touched her breasts with your hands?” Line
ten, Mr. Hatton says, “Yes, I have, yes sir.” Any
tactical reason to allow that that you can think of?

A I think that – that statement as I read it also
talked something about while she was dressing. If
that’s the

section that – that you’re referring to

counsel. And –

Q It – it – it is.

A And –

Q It’s line fifteen.

A Honestly, the only thing that I can think of
A-146

tactically that would be available would be some form
of, “Yes, I have innocuously touched this individual.”
But the fact that we’re dealing with lewd and
lascivious acts on the same particular individual, I
think that the reasonable strategy would have been to
redact it as – an uncharged prior bad – prior conduct of
– of the accused or a 404(b) objection. I think that
would have been the reasonable course of action,
knowing the – with the facts set out the way they are,
and with the fact that – with the statement that was
said in the opening, that – that even com – compounds
the idea that – that there are – that the defense
counsel is less than engaged in defense of his client.
....

Q

But is that a reasonable tactical strategy

given that the jury has never heard that statement and
A-147

now that statement is being brought out by defense
counsel who has misspoken in opening statement and
is now bringing something new to the jury attached to
his client stating, “I would really like to stick my penis
in you.” Or –

A Well, and to answer that question let me just
say that the issues that are being raised did not hap –
they don’t happen in a vacuum. When the – when the
state introduces the defendant’s statement and we
have a statement now that he is saying that the victim
is a reliable person. And now we have the defense
counsel questioning the victim. And she, if I recall
correctly, she says that she doesn’t remember making
such a statement. And then he impeaches her with
that statement I think that that makes it even worse.
I – I – I believe the strategy was to impeach her and
A-148

show that she is in some way being less than credible.
And I think it was hugely, it’s a huge backfire. And I
don’t think it was reasonable considering everything
that had gone before it. With the idea that the jury
could have certainly assumed that because Mr. Hatton
was saying that this young lady was, in fact, reliable
when she says she doesn’t remember and then it’s for
impeachment to show that she’s less than credible just
– just doesn’t – it just falls flat. And – and – and I
think it – it’s extremely inflammatory.

Q

So in your expert opinion would you opine

that this was not a reasonable tactical strategy to
impeach upon this issue.

A I think with this case with the evidence that
has the jury has before it. I think that the tactical
A-149

decision that was made was unreasonable to present
that as impeachment evidence. That’s what I think.

A-150

